<html>
<title> - HURRICANE KATRINA: PERSPECTIVES OF FEMA'S OPERATIONS PROFESSIONALS</title>
<body><pre>[Senate Hearing 109-591]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-591
 
   HURRICANE KATRINA: PERSPECTIVES OF FEMA'S OPERATIONS PROFESSIONALS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION




                               __________

                            DECEMBER 8, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
26-744                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T. Flanagan, General Counsel
                       Jonathan T. Nass, Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                Robert F. Muse, Minority General Counsel
                       Mary Beth Schultz, Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     2
    Senator Stevens..............................................     4

                               WITNESSES
                       Thursday, December 8, 2005

Scott Wells, Federal Coordinating Officer, FEMA Joint Field 
  Office, Baton Rouge, Louisiana.................................     7
Philip E. Parr, Deputy Federal Coordinating Officer, FEMA Joint 
  Field Office, Austin, Texas....................................     9
William L. Carwile III, Former Federal Coordinating Officer, FEMA 
  Joint Field Office, Biloxi, Mississippi........................    13

                     Alphabetical List of Witnesses

Carwile, William L. III:
    Testimony....................................................    13
    Prepared statement...........................................    61
Parr, Philip E.:
    Testimony....................................................     9
    Prepared statement...........................................    52
Wells Scott:
    Testimony....................................................     7
    Prepared statement...........................................    43

                                Appendix

Exhibit 1........................................................    71
Exhibit 8........................................................    83
Exhibit 9........................................................    90
Exhibit F........................................................    94
Exhibit G........................................................    99
Exhibit H........................................................   102
Exhibit I........................................................   104


   HURRICANE KATRINA: PERSPECTIVES OF FEMA'S OPERATIONS PROFESSIONALS

                              ----------                              


                       THURSDAY, DECEMBER 8, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, the Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Stevens, and Lieberman.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Today, 
the Committee continues its investigation into the preparation 
for and response to Hurricane Katrina.
    This morning, at our eighth hearing, we will hear from 
three witnesses who are among the Federal Emergency Management 
Agency's most experienced emergency managers and operations 
professionals. Each of our witnesses--Scott Wells, Philip Parr, 
and William Carwile--was directly involved in Katrina 
preparation and response. They will give us a more complete 
understanding of FEMA's role, share their observations about 
the State and local response, and provide their insights and 
recommendations for reforms.
    One of our witnesses today has described the national 
emergency response as a ``bottom-up system,'' with local and 
State authorities leading the way and Federal authorities 
coordinating operations and the deployment of resources. In 
Katrina, this system broke down, and the result was the very 
deprivation and suffering the structure was designed to avoid. 
This system must be fixed from the bottom to the very top.
    One of the most glaring breakdowns was in communications. 
This powerful storm devastated the land-based communications 
infrastructure throughout the Gulf region. This, however, was 
an utterly foreseeable result of howling winds and surging 
water that apparently was not adequately anticipated, nor 
compensated for.
    At our last hearing on November 16, we heard testimony from 
private sector witnesses who stressed the critical importance 
of maintaining communications in disaster management. They 
emphasized that good communications are the life blood of 
emergency operations, allowing for the effective movement of 
personnel and other assets as well as real-time assessments.
    In each of these companies, developing and maintaining 
robust systems, importing extra communications gear, and re-
establishing contact with the outside world were of the utmost 
priority and a key component of their preparedness plans. Their 
outstanding performance, unfortunately, stands in stark 
contrast to the inability of government at all levels to plan 
and execute backup communications systems.
    FEMA has mobile communications vehicles. But by the time 
anyone thought to bring one to the Superdome, the building was 
already surrounded by water, and FEMA was apparently unable to 
figure out a way to get its equipment into the building.
    FEMA also has communications equipment that could be 
airlifted in. But despite Mr. Parr's urgent request for such 
equipment, none arrived. In his interview with the staff, Mr. 
Parr estimated that the lack of communications equipment 
reduced his team's effectiveness by an astounding 90 percent.
    Much of the post-Katrina criticism has been justifiably 
focused on FEMA. But today's witnesses will explain that 
Katrina also exposed serious flaws at the local and State level 
that contributed to the suffering experienced by so many in the 
Gulf region.
    For example, according to the staff interview of Mr. Wells, 
Louisiana's emergency operations officials failed to follow--
perhaps even to comprehend--the National Response Plan, which 
is an integrated system designed to coordinate the Federal, 
State, and local responses to a disaster. Indeed, Mr. Wells 
noted that Louisiana's emergency managers were getting training 
on the critical Incident Command System 2 days after the storm 
hit.
    Today's witnesses will also help us determine how FEMA, 
State, and local officials can do better. They are all current 
or former Federal Coordinating Officers (FCOs) and possess a 
wealth of emergency management experience. The FCOs play a 
critical role in FEMA.
    In June of 2004, the FCO cadre urged Under Secretary 
Michael Brown to undertake reforms to remove obstacles to 
command, control, and core mission accomplishment and to 
reconfigure and enhance the national emergency response teams. 
The memorandum strongly advised that these reforms be 
implemented to help prepare for ``the next big one.''
    But we will hear today that disturbingly little was done in 
response to these recommendations, far too little to prepare 
for the big one when, indeed, it hit 14 months later.
    I very much appreciate the testimony of our witnesses today 
so that we can be better prepared for the catastrophic events 
yet to come.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks very much, Madam Chairman, for 
calling this hearing and for your continued leadership of our 
investigation.
    We have already held several important and informative 
hearings about Hurricane Katrina on subjects that range from 
the fate of the levees to the actions of the private sector in 
the wake of the storm, to the testimony of FEMA employee Marty 
Bahamonde during those dangerous days when he tried to get help 
to the thousands stranded in the Superdome.
    This morning's witnesses, FEMA's operations professionals 
who were on the scene in the Gulf Coast, will, I am confident, 
move the Committee's investigation forward toward finding out 
what went wrong before and after Hurricane Katrina so that we 
can achieve the purpose that Congress and all of us have in 
mind, which is to make sure that it never happens again.
    I want to thank our witnesses for the testimony they are 
about to give. I want to thank them for their distinguished 
careers of public service that each of them has. And those 
careers should not, in any sense, be diminished by the 
criticism that FEMA is receiving and may well receive today.
    I will say that, having reviewed your testimony prepared 
for this morning and the interviews that you had with our 
Committee staff and having now gone over other testimony and 
documents gathered by the Committee so far, it certainly seems 
to me that FEMA is a troubled agency that failed at its prime 
mission, the mission it draws its name from, which is emergency 
management.
    The fact is that the whole world watched on television as 
Hurricane Katrina, a disaster waiting to happen, developed in 
the Gulf of Mexico. The whole world listened to the experts who 
said that this was the long-dreaded ``big one'' that could take 
out the levees and flood the Big Easy. Yet FEMA seemed to 
underestimate the gravity of the storm coming and/or failed to 
realize that doing business as usual was unacceptable and would 
compound the disaster.
    Katrina obviously was not a typical hurricane in response 
to which FEMA or anyone else--Federal, State, or local--could 
work off of a typical playbook. Katrina required a more urgent, 
comprehensive, and aggressive governmental response.
    Katrina was a catastrophe. It knocked out many of the State 
and local communications, as Senator Collins has said, and 
response capabilities and overwhelmed those that remained. But 
FEMA seemed to expect a severely damaged State and local 
response network, itself the victim of the catastrophe, to 
operate as if it was at full and normal capacity.
    Like Senator Collins, I have been very surprised and upset 
to learn in the course of our Committee's investigation that 
America's battle plan for catastrophes, the National Response 
Plan's Catastrophic Incident Annex, was never activated in 
response to Katrina. And FEMA apparently still believes that it 
should not have been activated.
    As we will hear today, FEMA deployed too few people to 
respond to Katrina and deployed them too slowly. Many of those 
that did deploy apparently failed to appreciate what the 
breaking of the levees around New Orleans meant, and that 
failure had disastrous consequences, as we all know, for the 
people of New Orleans.
    As we learned at our previous hearings, New Orleans 
industrial canal levees were leveled by the storm surge early 
Monday morning, August 29. That led to almost immediate 
flooding in the eastern part of the city, including the lower 
9th Ward. By mid day, the Lake Pontchartrain levees were also 
breaking, and that led to a much slower flooding of downtown 
New Orleans, what we so often heard referred to as New Orleans 
``filling up like a bowl.''
    Mr. Bahamonde, previously referred to as FEMA's first man 
on the ground in New Orleans, told us that he communicated 
these facts by mid day Monday to FEMA and had a conference call 
with FEMA officials at the emergency operations center, among 
others, that night. We now know that other sources were 
providing the same information throughout the day to the Baton 
Rouge emergency operations center, where FEMA's top regional 
operators were stationed. Yet, as we will hear today, the FEMA 
emergency response team did not depart Baton Rouge for New 
Orleans until noon on Tuesday, significant hours later, almost 
a full day after the hurricane had hit and already passed.
    By that time, Lake Pontchartrain had been dumping its 
waters into downtown New Orleans for hours, making it 
impossible for the FEMA team to bring its vital communications 
tractor-trailer, so-called ``Red October,'' into the city. This 
left the team without any reliable means of communications and 
reduced its effectiveness in New Orleans, as Senator Collins 
said, by some 90 percent. That is according to Mr. Parr's 
testimony that we will hear this morning.
    But that wasn't the only costly delay. Unfortunately, we 
have learned from other witnesses that the Coast Guard was 
performing rescue missions as soon as hurricane-force winds 
abated on Monday afternoon. The State itself sent out rescue 
boats later Monday afternoon. But FEMA's search and rescue 
teams didn't arrive in New Orleans until Tuesday morning, and 
we want to ask why.
    Given the catastrophic nature of Katrina's damage, we must 
understand why FEMA wasn't prepared to move sooner. And of 
course, the most vexing part of it all is not just that this 
was all foreseeable, but that, in fact, it had been foreseen. 
This precise disaster scenario was used in the Hurricane Pam 
planning exercise conducted in June 2004. It also had been the 
topic of numerous stories in the media and hurricane 
conferences over the years.
    This was not a failure of imagination, as some might want 
to label it. It was a failure of realization. Realization that 
the catastrophe, about which we had all long been warned, was 
about to occur and that FEMA and everybody else, State and 
local, had to move quickly to address it.
    Yes, a disaster like Hurricane Katrina is an act of God. 
Yes, there will be confusion in such extraordinary natural 
disasters. Yes, mistakes will be made by people who are well 
intentioned. But adequately preparing for and responding to a 
disaster of this magnitude required a well-led, well-trained, 
well-drilled, and well-manned FEMA that had a plan in place and 
a sense of mission to guide its actions.
    Regrettably, it appears to me, at this point in our 
investigation, that all of these things were lacking as 
disaster swept across the Gulf Coast region last August. This 
morning, we want to ask why. And I am confident that these 
three witnesses can help us answer that question.
    Thank you very much, Madam Chairman.
    Chairman Collins. Thank you. Senator Stevens.

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens. Thank you, Madam Chairman and Senator 
Lieberman.
    I regret to disagree with the Senator from Connecticut. Our 
Committee took a trip to New Orleans. As a result of that trip, 
we became convinced that what happened in New Orleans was that 
Katrina went through New Orleans. We saw the buses in line that 
were ready to deal with the evacuation. The people of New 
Orleans were prepared for Hurricane Katrina. They were not 
prepared for the failure of the man-made systems of levees and 
gates and the enormous impact of that canal from New Orleans to 
the sea, which should never have been there.
    It is like saying that in terms of our earthquake, which we 
had in the Anchorage area, that someone was at fault because 
they didn't notify Kodiak and Seward that a tsunami might hit 
them--which did happen. What happened here is in the aftermath 
of Katrina going through, because of the subsequent series of 
events that caused the failure of the levees, the failure of 
the system, it was impossible to execute the plan.
    Now the plan for New Orleans was caused by a provision in 
the 1998 appropriations bill, which the last administration 
failed to make. But finally, in 1999, we mandated that plan. It 
was prepared. It was actually exercised after the start of 
2001. It was there, and I think the people of New Orleans 
started to follow that plan, and they started to move their 
people to the dome and to the various places which should have 
been safe.
    But with the failure of the man-made systems and the 
failure of having the ability to shut off the surge that came 
across Lake Pontchartrain, this became a man-made disaster. And 
I do not agree that we can fault FEMA or the City of New 
Orleans or the State of Louisiana for failing to anticipate the 
complete failure of the systems that were prepared in the past.
    As a matter of fact, I think you can go back to President 
Johnson's time and find that he tried to build even better 
systems at the time, and the funding was turned down.
    But as a practical matter, this damage, as sad as it is--it 
is a sad thing--it is not a failure of the warning system. The 
warning was there. It was a failure of systems that were put in 
over the last 30 years to prevent the surges that happened in a 
way and the combination of them was by the time that surge came 
in from the ocean, it came up that canal, it was like a tsunami 
coming up that canal. Had the canal not been there, those 
levees might not have failed.
    So this is not some time to critique the failure of the 
people involved to predict that the basic systems for 
protection that had been designed over a period of years would 
simultaneously all collapse. And that is what happened. Every 
single one of them collapsed.
    Now those were man-made. This isn't an act of God. This is 
a failure of our basic engineering systems, our basic concepts 
of protection, and we have to do better in the future. I am not 
going to join in criticizing those who tried to do the best in 
the most extraordinary circumstance I have ever seen.
    Now this Senator has seen war. I have seen cities in China 
totally destroyed. I never saw destruction like I saw in New 
Orleans. No person on Earth could have predicted that. It had 
to be a combination of circumstances caused by Katrina going 
through, and then the surge and all the collapse that came 
afterward.
    So I hope we look at FEMA and the rest of these people and 
ask them what can we do to prevent this in the future? Let us 
quit looking backwards and trying to assess blame. Let us find 
out what can we do to assure that this won't happen not only in 
New Orleans, but anywhere else where we are relying on levees 
and man-made protections to prevent disasters.
    Thank you very much.
    Chairman Collins. I would now like to welcome our panel of 
witnesses before us today.
    Our first witness, Scott Wells, joined FEMA as a Federal 
Coordinating Officer in 1999. Since that time, he has been 
deployed by FEMA to more than 20 disasters. For Hurricane 
Katrina, he was the second in command, serving as the deputy 
FCO.
    Mr. Wells arrived at the emergency operations center in 
Baton Rouge on Saturday, August 27. Mr. Wells previously served 
as an Army officer for more than 20 years, and he was the DOD 
liaison to FEMA before retiring from the Army in 1999.
    Next we will hear from Philip Parr. For more than 20 years, 
Mr. Parr served as a firefighter for New York City, ultimately 
rising to the rank of battalion chief. In January 2004, Mr. 
Parr left the New York City Fire Department and joined FEMA as 
a Federal Coordinating Officer.
    During Hurricane Katrina, Mr. Parr led the emergency 
response advance team and was deployed to New Orleans. Mr. Parr 
and members of his team arrived in the Superdome on the morning 
of Tuesday, August 30. He later led FEMA teams into the 
hardest-hit parishes of southern Louisiana.
    William Carwile joined FEMA in 1996 as director of Region 
10, headquartered in the Pacific, and was a Federal 
Coordinating Officer for five tropical storms in the Pacific. 
His emergency management experiences on the mainland include 
New York City following September 11, the 2003 California 
wildfires, and four hurricanes that struck Florida last year.
    During Hurricane Katrina, he served as the Federal 
Coordinating Officer for Mississippi. He is a retired U.S. Army 
colonel with a 30-year military career.
    I want to thank each of you for your testimony today and 
for your public service. Because this is part of an ongoing 
investigation, I would ask that you each stand so that I can 
swear you in. Please raise your right hand.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    The Witnesses. I do.
    Chairman Collins. Thank you.
    Mr. Wells, if you would go first and proceed with your 
statement?

TESTIMONY OF SCOTT WELLS,\1\ FEDERAL COORDINATING OFFICER, FEMA 
           JOINT FIELD OFFICE, BATON ROUGE, LOUISIANA

    Mr. Wells. Good morning, Chairman Collins and Members of 
the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wells appears in the Appendix on 
page 43.
---------------------------------------------------------------------------
    My name is Scott Wells, and I am honored to appear before 
you today. My current position with FEMA is Federal 
Coordinating Officer in Louisiana for Hurricanes Katrina and 
Rita.
    I would like to start this morning by thanking you for the 
invitation to testify before this Committee. I appreciate the 
opportunity to share my perspectives on FEMA operations before, 
during, and after our Nation's costliest disaster, Hurricane 
Katrina.
    It is my intention today to speak candidly with you about 
my experiences in Louisiana, both leading up to and following 
Katrina, as well as my perspectives on emergency management. I 
will begin my testimony today with a brief overview of my 
professional career in emergency management.
    For almost 2 decades, I served in various positions of 
emergency management. Beginning in 1985, for 2 years as a first 
responder MEDEVAC pilot. During my 24-year military career, I 
also spent 10 years in the Pentagon providing military support 
to civilian authorities. My last military assignment in the 
Pentagon was as a military liaison officer to FEMA.
    In these assignments, I was involved in numerous disasters 
and emergencies such as Hurricane Andrew, the Northridge 
earthquake, the Midwest floods of 1993, the Oklahoma City 
bombing, the Haitian/Cuban immigration emergency, the Waco 
siege, and the Ruby Ridge incident.
    I retired in 1999 from the Army and have been working for 
the Federal Emergency Management Agency as an FCO for the past 
6 years and served on several disasters and emergencies to 
include Tropical Storm Allison in Texas and the Columbia 
Shuttle recovery operation.
    On August 27, I was assigned to Louisiana as the Deputy 
Federal Coordinating Officer to Bill Lokey for Hurricane 
Katrina. I served in that capacity until September 19. At that 
time, I was reassigned to Texas as the Federal Coordinating 
Officer for Hurricane Rita, as she made her way through the 
Gulf of Mexico. As the FCO for Rita, I remained in Texas until 
the first week of October, at which time I returned to 
Louisiana to replace Bill Lokey for Hurricane Katrina.
    Detailed preparation for a Katrina landfall in Louisiana 
started in earnest on Friday, August 26, when the National 
Weather Service quickly changed the projected zone for landfall 
to include Louisiana. Much work had been done earlier in the 
week, but the focus of those efforts--given the projected path 
of the storm--was on Florida, Alabama, and Mississippi.
    Field deployments to Louisiana began on Saturday, August 
27, with the emergency response team's advance elements 
deploying to the Louisiana emergency operations center here in 
Baton Rouge. The Federal regional and national staffs 
consolidated that night and started conducting field operations 
in preparation for landfall.
    In addition to the command and control element being set up 
in Baton Rouge, we concurrently were setting up an operational 
staging area in Alexandria, Louisiana, that served as a Federal 
logistics base for Katrina operations.
    The first actual employment of Federal resources--that is, 
where we provided--FEMA provided response assets to the State--
occurred on Sunday, the day before landfall, when we shipped 
six truckloads of water and three truckloads of MREs to the 
Superdome. Two of the truckloads, one each of water and MRE, 
did not complete delivery. They were denied entry by the 
Louisiana State Police before reaching the Superdome.
    That was the beginning of response operations and was soon 
followed by many other response resources, such as medical 
teams, search and rescue teams, and other critical commodities, 
such as water, food, and ice.
    There has been much said about the slow Federal response to 
Katrina. From my perspective, with all due respect to Senator 
Lieberman, I want to say nothing could be further from the 
truth. We had a fully operational logistics base, a fully 
operational command cell, and response teams in place, all 
before landfall. We even moved some supplies in before landfall 
and attempted to move in a medical team.
    On the day of landfall, we moved search and rescue teams, 
medical teams, and critical supplies into the affected area. It 
may not have been enough for an event of this magnitude, but it 
was fast.
    I think the real issue is that the response was not robust. 
It was not enough for the catastrophe at hand. And as you 
look--as we all look--to make it better next time, I think it 
is an important distinction to make. ``Slow'' means one thing. 
``Not enough'' means something else. More importantly, the 
corrective actions between fixing ``slow'' and ``not enough'' 
could be significant.
    Emergency management is unlike any other system in the 
government. It is a bottoms-up approach. The people on the 
ground are in charge. The first responders are supported, as 
required, by local government, then State government, and as a 
last resort, the Federal Government. Ultimately, authority for 
disaster response operations rests at the local level. The 
State and Federal Governments are not in charge, but are 
responsible for assisting local governments.
    And that is how it should be, as all disasters are local. 
Disasters start at the local level, and disasters end at the 
local level. This system works for small to medium disasters. 
It does not work so well for large disasters, and it falls 
apart for a catastrophic disaster. I think that is a 
fundamental problem with the response to Katrina.
    Following are some of the other major problems and proposed 
changes I believe could improve our national readiness posture 
to respond to future disasters. And I will list them, but in 
the interest of time, I won't go through all of my statement, 
but you will have it.
    (1) We need to strengthen the emergency management 
capability at the State and local level.
    (2) We need to review the emergency management architecture 
for response and recovery operations. There are problems 
associated with the implementation of the Stafford Act as it is 
executed through the National Response Plan and the Incident 
Command System.
    (3) We need a trained, staffed, and equipped Federal 
response team.
    (4) We need to change the financial management of 
disasters.
    (5) We need to simplify the public assistance process.
    (6) We need to simplify individual assistance process.
    (7) We need a greater investment in the leadership and 
management within FEMA.
    Emergency management is not a simple system. Accordingly, 
there are no simple solutions. To have an effective national 
disaster response structure, we must have a viable local, 
State, and Federal capability. If any of these links in the 
emergency management chain breaks, the system itself begins to 
break down. If we cannot have viability at all three levels, 
then we should change the system.
    Thank you for giving me the opportunity to share a field 
perspective of Hurricane Katrina.
    Chairman Collins. Thank you, Mr. Wells. Mr. Parr.

  TESTIMONY OF PHILIP E. PARR,\1\ DEPUTY FEDERAL COORDINATING 
        OFFICER, FEMA JOINT FIELD OFFICE, AUSTIN, TEXAS

    Mr. Parr. First, I want to say good morning to this august 
Committee. Good morning, Chairman Collins.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Parr appears in the Appendix on 
page 52.
---------------------------------------------------------------------------
    My name is Phil Parr, and I want to thank you for the 
opportunity of testifying before you about my experiences and 
the response to Hurricane Katrina. The views expressed in my 
testimony are my own and do not necessarily reflect the views 
of the Department of Homeland Security.
    Presently, my position with FEMA is that of Federal 
Coordinating Officer. I have been involved with response and 
emergency management for the past 26 years. I was sworn in as a 
member of the New York City Fire Department in 1979 and rose 
through the ranks to attain the level of chief officer in 1999.
    During my tenure with the FDNY, and particularly during my 
tenure as a chief officer, I served in many capacities, 
including, but not limited to, fire and emergency ground 
commander, operations, planning for Y2K scenarios, and as a 
deputy director in the New York City Office of Emergency 
Management. I have played an active role in countless disasters 
and crisis situations to include the September 11 attack at the 
World Trade Center, where I was on scene prior to the towers 
collapse.
    Since January 2004, I have been a member of the Federal 
Coordinating Officer program, assigned to FEMA Region 1, New 
England. In this role, I have served in various capacities, 
including FCO for three presidentially declared disasters.
    Before I continue with my testimony, I think it is 
important to mention that I have always taken great pride in my 
years of service as a member of the New York City Fire 
Department. At one time, I would not imagine serving in any 
other position in which I would serve with the same feeling and 
pride.
    However, during my tenure with FEMA, the dedication to 
service as displayed by its members and their care for disaster 
victims has allowed me to serve with the same pride and 
satisfaction that I experienced during my previous 25 years of 
public service. So it is with that passion that I speak before 
this Committee, and I thank you again for the opportunity to do 
so.
    On Saturday, August 27, I was informed that I would be the 
emergency response team advance element team leader for the 
State of Texas. My team was composed of personnel from FEMA 
Region 1, New England, and we were instructed to rendezvous in 
the Region 6 Regional Response Coordination Center in Denton, 
Texas, on Sunday, August 28. Soon it became clear that Texas 
was not in the path of Hurricane Katrina and that members of my 
team and I would be assigned as the lead element in New 
Orleans, Louisiana.
    I flew to Louisiana immediately following the hurricane 
passing, Monday, August 29, with a contingent of my team. And 
Tuesday morning, August 30, we helicoptered into the Superdome. 
Our mission was threefold. One, form a unified command with the 
State, as represented by the Louisiana National Guard, and the 
City of New Orleans. Two, maintain visibility of commodities 
ordered. And three, build out a base from which FEMA teams 
could be formed to locate and assist in the hardest-hit 
parishes.
    To accomplish these goals, we were to meet a mobile 
emergency operations and communications vehicle and use that as 
a base of operations and communication. Due to extensive 
flooding in the city, our communications vehicle was unable to 
enter the Superdome, and this severely hampered our operations.
    Despite this, and while working under the most difficult of 
circumstances, we were able to assist the National Guard in 
maintaining a supply of food and water to Superdome evacuees--
all were fed and provided water--and, even with limited 
communications, facilitate the arrival of what was to become 
over the next 4 days a thousand-bus convoy to evacuate the City 
of New Orleans to start the day after our arrival.
    The FEMA disaster medical assistance team treated hundreds 
and identified seriously injured and special needs patients who 
were evacuated via air and ground assets throughout the 
operation. In addition, several meetings were held with the 
mayor and his staff, ranking National Guard officers on the 
scene, and other Federal officials to include DOD and the Coast 
Guard. This facilitated the initiation of a unified command 
structure.
    Due to the enormity of the event, not all of our initial 
goals were met. A delay ensued in placing teams into other 
hard-hit parishes, which I believe took place that Friday and 
Saturday.
    I have been asked whether FEMA was overwhelmed, or could 
our response be considered slow? To consider the latter first, 
I must say, in my opinion, no. FEMA teams--response, 
management, medical, and urban search and rescue--were in 
position in four States pre-landfall. Commodities were staged 
close to the impacted areas, and in some cases, the hand-off to 
the State had already taken place.
    In addition, and as previously mentioned, FEMA mission 
assigned Emergency Support Function 1, the Department of 
Transportation, and they verified that, by September 3, 990 
buses were in service performing evacuations. It is estimated 
that over 66,000 persons were transported by that date. The 
number of buses grew to over 1,100 in the next 2 days.
    Were we overwhelmed? The simple answer is yes. But what 
needs to be understood is that, at any disaster, the initial 
response always feels overwhelmed. I must draw on my experience 
as a local responder to give you an example on a small scale of 
what I mean, and then a larger one.
    The police officer who pulls up to a 2-car accident with 
severe injuries while he operates alone, waiting for help, is 
overwhelmed. The fire officer who pulls up to a burning 
structure with people trapped inside is overwhelmed. But the 
true professional, while responding and operating, knows that 
he is constantly sizing up the situation, gaining intelligence, 
shifting strategies, modifying plans, and calling for 
assistance where needed to meet unfulfilled needs, whether 
expected or unexpected.
    I would like to refer back to the disaster of September 11 
and its effect on the emergency personnel operating at the 
World Trade Center. First, it must be remembered that within 
the 369 square miles of New York City are the resources of a 
State with a strong central government. There are over 35,000 
New York City police officers, about 13,000 firefighters and 
emergency medical personnel. These numbers only begin to 
enumerate the assets available to the city. No other city in 
the country can begin to come close to the responders that are 
contained within New York City.
    The response to the attacks on the towers was immediate. 
The enormity of the task at hand was overwhelming. Then with 
the collapse of the towers, it was chaos. Emergency services 
within New York regrouped almost immediately and restarted 
operations, but a full, coordinated plan took days.
    The World Trade Center complex was 13 acres. The landfall 
of Hurricane Katrina affected four States and covered an area 
of 90,000 square miles, an area the size of Great Britain. It 
affected millions.
    Effectively, Louisiana was hit by two disasters. First, a 
devastating hurricane along with its associated blast damage 
and, second, a catastrophic flooding event caused by levee 
failures. Hurricane Katrina was the most devastating disaster 
to hit our country. We were all overwhelmed--the city, the 
State, the affected parishes, and the Federal Government.
    What can FEMA, individuals, local governments, and States 
do to be more prepared? First, it must be realized that the 
response to any crisis or disaster is the responsibility of 
every individual and form of government in this country. 
Emergency management is more than just coordination. It is 
about partnership with all entities previously mentioned.
    Each of us plays a vital part, and any one of us who fails 
in our part fails in that partnership. That failed 
responsibility must be picked up by one of their partners, and 
that causes delay, confusion, and lack of coordination.
    For FEMA's part, it is my belief we have not done what is 
needed to get that message across to individuals, locals, and 
States. We have worked to create an image that Uncle Sam will 
be on your doorstep with MREs, food, water, and ice before the 
hurricane-force winds subside. We have created an expectation 
that in a large or no-notice event, such as a terrorist attack 
or an earthquake, we can never hope to meet.
    As an agency, we must help our partners understand their 
role in the emergency management cycle, as many States and 
locals do now. To this end, I believe we can do much with 
conditional and competitive grants to State and local 
governments to achieve this.
    Generally because response is immediate and local, FEMA's 
primary role in disaster is recovery. With some notable 
exceptions, what is described at the Federal level as response 
in actuality is ``response support''--that is, supplying life-
saving commodities--with local and State responders performing 
what we traditionally call response.
    But as an agency, we can do better in the response role. 
Primarily, I believe this can be accomplished by a shift in 
attitude and training by some in management and decisionmaking 
roles in our agency.
    In another area of improvement, FEMA has initiated a total 
asset visibility system whereby truckloads of commodities can 
be located via satellite transponder and tracked more closely. 
This system must be fully put online before our next hurricane 
season.
    We should recognize that FEMA is a small agency, especially 
when compared with other Federal agencies. But its strength 
lies in the fact that the National Response Plan identifies it 
as the coordinating agency for the entire Federal response.
    I believe more drills, familiarization and otherwise, are 
necessary between FEMA and other Federal agencies to help 
clarify roles and responsibilities under the NRP and in their 
critical emergency support functions. Understanding their 
contribution and role in the emergency response team structure 
is essential for effective response. These crucial elements 
must be established and become routine to help ensure that a 
better-coordinated Federal package can be delivered to States 
to assist them in their response.
    Additional standardized and practical training must be 
provided to personnel who may be asked to serve on response 
teams at the county or local level. Training programs and 
expectations that build on practical experience from this and 
previous operations, with input from States, must be provided 
to FEMA staff, who may be needed to assist at the local level 
in response operations.
    As with any operation, I hope that, as an agency, we can 
make these changes based on lessons learned. I would also hope 
that State and local officials will review their emergency 
management procedures and also adopt necessary changes. 
Finally, each citizen has a responsibility to plan, heed 
warnings, and do whatever is within their means to prepare and 
respond to disaster.
    Thank you for the opportunity to speak on this subject.
    Chairman Collins. Thank you. Mr. Carwile.

    TESTIMONY OF WILLIAM L. CARWILE III,\1\ FORMER FEDERAL 
    COORDINATING OFFICER, FEMA JOINT FIELD OFFICE, BILOXI, 
                          MISSISSIPPI

    Mr. Carwile. Good morning, Chairman Collins and 
distinguished Members of the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Carwile appears in the Appendix 
on page 61.
---------------------------------------------------------------------------
    I am Bill Carwile. Thank you for inviting me today to 
testify about operations in Mississippi during Hurricane 
Katrina.
    Between August 29 and October 15, I was initially the 
Federal Coordinating Officer and later the Deputy Federal 
Coordinating Officer. I recently retired from FEMA and am 
currently affiliated with the Center for Homeland Defense and 
Security at the Naval Postgraduate School in Monterey, 
California. I am testifying today as a private citizen.
    There are many lessons to be learned from the responses to 
Hurricane Katrina. I applaud your efforts to gather information 
critical to charting a future for disaster operations in our 
country. I hope my testimony will, in some way, make a 
contribution to that undertaking.
    My perspective is from one who has been in the field, on 
the ground in large-scale disasters during much of the last 9 
years. My recent experiences include serving as operations 
section chief for the World Trade Center operations in New 
York, serving as Federal Coordinating Officer for the 2003 
wildfires in California, and FCO for each of the four 
hurricanes last year in Florida.
    I joined FEMA in 1996 as the director of the Pacific area 
office in Honolulu, Hawaii, where I reside today. In 1999, I 
became one of the first members of the Federal Coordinating 
Officer program created to provide a pool of trained 
professionals to manage the Federal side of disasters.
    In 2003, I was appointed as one of the first predesignated 
principal Federal officials by former Homeland Security 
Secretary Tom Ridge. Prior to my service with FEMA, I retired 
as an Army colonel, having served almost 3 decades as a special 
forces and infantry officer in the regular Army. My assignments 
included two tours in Vietnam.
    I would like to address three major points in my oral 
testimony. First, there were three separate presidential 
disaster declarations as Hurricane Katrina struck the Gulf 
Coast--Louisiana, Mississippi, and Alabama. These were three 
different disasters in the type and extent of destruction, the 
number of people affected, and each State's constitutional 
relationships with its local jurisdictions.
    While each disaster was different, they were similar in 
that in each disaster the governor of the State was in charge. 
As FCO, I was appointed by the President as his representative 
to support the governor using the authorities provided for in 
the Stafford Act. While there were three distinct disasters, 
today my comments will cover only operations in Mississippi, 
where I was.
    Second, in my view, this was the first time we fully 
implemented appropriate portions of the National Incident 
Management System, the National Response Plan, and the Incident 
Command System in a major disaster response. During the summer 
of 2005, following the distribution of the National Response 
Plan, many Federal and State emergency managers underwent 
training on the plan and ICS.
    Fortunately, I and key members of our emergency response 
team in Mississippi, which is mostly comprised of personnel 
with whom I have worked for years, had participated in 
extensive ICS training. Similarly, Mississippi Emergency 
Management Agency Director Robert Latham and his staff and most 
county emergency managers had recently undergone NIMS and ICS 
training.
    One of the key members of my team, operations section chief 
Bob Fenton, has long been involved in the doctrine on training 
development, is an expert on how to adapt ICS for large-scale 
operations.
    Using this training and our experience in prior disasters, 
Robert Latham and I and our teams established a unified command 
to a degree beyond which I believe is envisioned by the 
National Response Plan and began the joint incident action 
planning process, which set our priorities for each of the 
operational periods, which is a 24-hour period at first, 
following the ICS concepts. Governor Barbour attended and 
participated in many of our meetings and provided leadership 
and important strategic guidance.
    During the response, we found that some aspects of the 
National Response Plan did not fit our organizational needs for 
a joint State/Federal response to a catastrophic disaster. We 
found it necessary to modify some important aspects of the 
plan. These changes are detailed in my written testimony.
    While it is my belief that ICS works well for fires and 
smaller disasters, some substantial modifications are required 
for large-scale events. Mostly, these modifications revolve 
around the need for unified command up and down the 
organization and in order to address political and operational 
realities.
    I would recommend that an effort be made to capture the 
experiences of the individual geographic and branch directors 
and division supervisors. They were down in the communities and 
provided us a manageable span of control. This might be 
accomplished through interviews, similar to the Army's oral 
history program, to find out what really worked down there, 
where the rubber meets the road.
    This effort will provide a more detailed view of what 
changes to the NRP should be made to accommodate the realities 
of joint State/Federal response to a catastrophic disaster.
    Third, there have been questions raised about the 
competence of FEMA personnel in the wake of Hurricane Katrina. 
In my career in FEMA, I worked with many dedicated and highly 
competent individuals who were committed to serving both our 
country and the victims of disasters. Many routinely give up 
holidays, anniversaries, birthdays, and normal family lives to 
help others. I am proud to have been part of FEMA and 
especially proud of the many individuals whose heroic efforts 
helped the people of Mississippi and other States in which I 
have served. They deserve our thanks.
    A disaster can bring out the best in people. There are 
thousands of stories of individual acts of heroism and 
kindnesses during Katrina. Mississippians helped their 
neighbors. Hundreds of local officials, who had just lost 
everything, reported for duty. And all around the country, 
volunteers left their lives behind and headed for the Gulf 
Coast to help.
    We should not forget, however, that in a catastrophic 
disaster, the government and those wonderful voluntary agencies 
can never provide adequate aid in the immediate aftermath of 
the disaster. We all need to better prepare ourselves and our 
families and be ready to help our neighbors.
    In my written testimony, I provide comments about what I 
think went well and what didn't go well in the response and 
initial recovery for Katrina in Mississippi. Two main points. 
The State/Federal unified command worked well in Mississippi. 
But this success was obscured by the fact that requested 
resources did not arrive quickly enough. Better, more effective 
methods must be adopted to quickly deliver resources in a 
catastrophic event.
    In Mississippi, while temporary housing has been provided 
in numbers far exceeding any previous effort, this success is 
obscured by the overwhelming need and an exceptionally long 
period of time that people remain in shelters. New 
methodologies must be examined and implemented to take care of 
Americans in need of humane housing while in a catastrophic 
event.
    These are but two of the many challenges the Nation faces 
if it is to really prepare for the next catastrophic disaster. 
We must do all we can to capture the lessons learned, both good 
and bad, from Katrina in Mississippi in order to make real 
changes so that the next time, elected and appointed officials 
will be able to better support the needs of victims.
    I thank the Committee for undertaking this important work 
for the Nation. I will be glad to try to answer any questions 
you may have.
    Chairman Collins. Thank you for your testimony.
    I want to start my questioning today to get your judgment, 
your assessment of preparedness and response at the State and 
local level. As Mr. Wells pointed out in his testimony, our 
Nation's emergency management structure is often referred to as 
a bottom-up structure. It has key roles for local, State, and 
Federal Governments to play.
    I thought that Mr. Wells made an important point when he 
said that there is some misconception on the part of the public 
about who plays what role in our emergency response system. So 
starting with you, Mr. Wells, if FEMA and the Federal 
Government are at the top of the structure, how did the bottom 
part work, in your judgment, for Hurricane Katrina? How would 
you assess the State and local response in Louisiana?
    Mr. Wells. Well, a lot of it is situational. Each parish in 
Louisiana has different capability. The important thing in 
emergency management is you have to have a foundation 
established for the Federal departments to build on.
    When we go into a disaster, the locals are in charge. The 
locals ask for assistance from the State, who, in turn, asks 
for assistance from FEMA. If there is no structure, if there is 
no organization, if there is no capability at the local or the 
State level, there is no foundation from which we can build.
    I will give you one example to compare between Katrina in 
Louisiana and Rita in Texas to try to demonstrate what I mean 
by that. In Texas, for Rita, I was there for the preparation 
phase, and we are just going to talk about prior to landfall 
because it is equivalent to Katrina in that no disaster struck. 
It wasn't catastrophic in Texas for Rita. So, post landfall, it 
was different. So let us just talk about pre-landfall.
    In the State of Texas, they had plans. They had plans at 
the local level. They had plans at the State level that 
leveraged the Federal capability. One example, evacuation. In 
Texas, we were asked--the Federal Government--to provide 
evacuation support prior to landfall. The State of Texas had a 
plan to build on, and so we worked with the State of Texas and 
the areas of Beaumont to Houston to evacuate special needs 
patients, elderly, and the disabled. One person had an iron 
lung.
    This is a very difficult mission. Just getting one patient 
onboard an airplane is very difficult, and they did somewhere 
between 11,000 and 13,000. And we were able to have an 
effective national response structure--national is local, 
State, and Federal--because the Federal Government had 
something to build on. We did not have that in Louisiana.
    Chairman Collins. Senator Stevens informs me that he has to 
leave, and he has one question that he would like to ask before 
he does so.
    Senator Stevens. Thank you very much. I am going to the 
reconciliation meeting.
    One of the problems we are having is that there seems to be 
a congressional feeling about the extent of our responsibility 
to the people in New Orleans, who really suffered damage from 
what I call really man-made disasters. I wonder if the two of 
you would join me in sending a letter from this Committee 
asking the Department of Justice if there is a different 
standard of liability for the Federal Government to those areas 
that were not harmed by Katrina, but were harmed by the failure 
of the levee and other systems that were man-made?
    Chairman Collins. Well, as the distinguished Senator may be 
aware, we have had one hearing looking at why the levees have 
failed. We have a second hearing scheduled for next week, which 
is going to look at all the roles of the various players--the 
local levee district, the Army Corps of Engineers, and the 
State of Louisiana, and the Commonwealth of Louisiana's 
Transportation Department.
    There is a lot of confusion, our investigation has found, 
over who was responsible for the maintenance and the inspection 
of the levees. I would like to wait until we complete that 
hearing before proceeding. But I hope you will be able to 
attend that hearing. I think it is going to be a very 
interesting one, based on what our extensive investigation has 
found.
    Senator Lieberman.
    Senator Lieberman. Yes, thanks, Madam Chairman.
    Senator Stevens, obviously, I would be glad to look at any 
letter you put together. But I agree with the Chairman, it is 
probably best for us to wait until after the hearing next week.
    I will just say very briefly, because I know you have to 
go, where I think we agree is that the immediate cause of most 
of the damage in New Orleans was the failure of the levees. And 
there is some reason to believe--I can't conclude at this 
point--from what we have heard that there was a failure of 
construction, design, and other issues.
    Where I think we disagree is that, unfortunately, I believe 
that was foreseeable. In other words, the levees may have 
failed more quickly and in some different ways than people 
expected. But we have a lot of history that we put together 
here that shows that the experts were all saying if a category 
3 or higher hurricane hit New Orleans, those levees would not 
hold.
    Maybe more of them broke than we thought. Maybe they broke 
sooner. But there is a lot of communication indicating they 
might fail. In fact, the Hurricane Pam exercise that was 
carried out in June 2004 was based on the levees failing and 
what would we do as a result. And that is where, I think, we 
have a reason to ask FEMA why it wasn't ready to deal with it.
    Senator Stevens. Well, I think my question goes to who is 
going to be responsible? There is a lot of damage out there now 
that was not covered by insurance, either flood or otherwise.
    Senator Lieberman. Right.
    Senator Stevens. And attempts to try and use Federal funds 
to meet some of that damage is being met with resistance. I 
think the duty of this Committee is to demonstrate that there 
is an extra added level of responsibility in the areas where 
those levees failed.
    And it is true that there were predictions. When we did our 
thing in appropriations in 1998 and 1999, we had the feeling 
that there were severe problems. We had people that told us 
there were problems there.
    Senator Lieberman. Right.
    Senator Stevens. But notwithstanding that, we got a plan. 
But no one really fixed the levees, and no one fixed the gates, 
and people have suffered enormous loss. Now we have to have a 
greater feeling in Congress about our responsibility to those 
people who are in that one area where it was not just Katrina, 
a natural disaster, but damage from man-made disaster.
    I think there has been a failure in Congress to recognize 
that difference. But I appreciate and I hope I can attend the 
hearing. Thank you very much.
    Chairman Collins. Thank you.
    I am going to resume my questioning with Mr. Wells to try 
to get us back on track a little bit.
    It was helpful to hear your different experience dealing 
with Louisiana versus Texas. In general, were the Louisiana 
officials that you dealt with familiar with their 
responsibilities under the National Response Plan? And did they 
understand how the Incident Command System worked, in your 
view?
    Mr. Wells. No. Short answer.
    The Incident Command System is very important. You cannot 
do anything without command and control. If I may take a minute 
to read something from an emergency services person who is on a 
workgroup for the search and rescue mission, which was a 
combined effort of the Louisiana Department of Wildlife and 
Fisheries, the Coast Guard, the state police for Louisiana, 
DOTD, and FEMA, to show you what it is like when you don't have 
an effective Incident Command System? And I am just going to 
read this verbatim. It is unvarnished.
    ``Establishing a State/Federal search and rescue workgroup 
on August 28 was a great concept. However, there were some 
shortfalls. The workgroup was a joint effort in name only. We 
had a great initial meeting and established solid operational 
concepts, but had no decision-makers present with the authority 
to obligate their agency's resources.
    ``The State appointed a workgroup leader who was to oversee 
the State assets. However, this workgroup leader flew to 
Jackson barracks the afternoon after the initial meeting and 
was not heard from for 9 days. For 3 weeks, I sponsored''--this 
was the FEMA person--``the workgroup's twice-a-day meetings 
that were attended by FEMA, who had resources and authority to 
direct search efforts.
    ``The U.S. Coast Guard, who had junior officer 
representation but no authority to direct search and rescue air 
operation, all operations were directed by senior Coast Guard 
officers from another location. These officers refused to meet 
and conduct joint search and rescue operations with FEMA and 
State agencies.
    ``State wildlife and fisheries had representation but no 
authority to make management decisions on search and rescue 
operations. That authority remained with senior officers who 
conducted solo operations.
    ``State police, who had an interest in following up on 911 
calls, but had no State search and rescue authorities or 
resources to assist.
    ``Civil air patrol attended and had air resources to 
support search and rescue, but had no State taskings to engage 
their resources.
    ``The DOTD, the State Department of Transportation, had 
resources to support joint search and rescue missions, but 
refused to attend any of the meetings or plan joint efforts.''
    This is a failure of the Incident Command System. It is all 
about having people that can make decisions on the spot and get 
on down the road. This is just but one example of why things 
were slow and why things didn't work out as fast, as efficient, 
or as effective as they should. If people don't understand ICS, 
we can't do ICS. And if we can't do ICS, we cannot manage 
disasters.
    Chairman Collins. Mr. Parr, what is your assessment of how 
the Incident Command System worked in Louisiana?
    Mr. Parr. I want to echo Mr. Wells's sentiments. It is 
extremely important, in my experience, at a local level, as 
something that is near and dear to my heart. I think, and as I 
said before--and this is not necessarily to point fingers, but 
hopefully, for us to critique ourselves and learn how we can do 
better next time--I cannot begin to explain the dedication that 
the police officers and firefighters in the City of New 
Orleans, how they acted, how they responded.
    The same thing with the National Guard. I was working with 
people every second of every day who literally lost everything. 
But they were there doing their jobs, working as hard as they 
could.
    I think one place where we need vast improvement is in 
their preparation. It is the responsibility of local 
authorities to evacuate their people. It is the responsibility 
of local authorities to set up shelters that are properly 
protected from flood waters, that are properly protected from 
hurricanes because not all are going to be able to be 
evacuated. It would be unreasonable for us to expect 100 
percent evacuation of a city the size of New Orleans.
    I found that there was very little preparation. No 
information on shelters other than the Superdome. There was no 
assets or commodities at the Superdome, other than what FEMA 
gave to the State, which they did distribute at the Superdome.
    There were no sanitation facilities before the levees 
broke. You can imagine the difficulty of moving sanitation 
facilities into a city with 4, 5, 6, and, in some areas of the 
city, 14 feet of water once that happened. That is the job of 
local and State governments. And simply, that just did not 
happen.
    Chairman Collins. Mr. Carwile, how did the Incident Command 
System work in Mississippi?
    Mr. Carwile. Madam Chairman, I think it worked very well at 
the top. There had been training previous to Hurricane Katrina 
by the Mississippi Emergency Management Agency on down to the 
county emergency managers. So it worked well.
    We quickly were able to form a unified command with both 
myself and Robert Latham, my counterpart from the State. And we 
included at the top of the unified command the Adjutant General 
for the State of Mississippi, Major General Cross, as well as 
the commissioner of public safety, George Phillips, because 
each one of those brought so much to the table in terms of 
resources to manage.
    I think where the difficulty becomes--and I believe Senator 
Lieberman talked about this in his opening remarks--in a 
situation, a catastrophic disaster, it is very difficult to 
build from the bottom up if there is no bottom. Mayor Tommy 
Longo of Waveland and over in Hancock County, Mississippi, I 
mean, he lost every fire truck, and the fire station. Every 
police officer lost their home. There was no city hall. There 
was nothing left for Mayor Longo to build on.
    Similarly, in Hancock County, the emergency operations 
center in the county had to be evacuated, and we moved our 
folks over to Stennis in order to have a communications and a 
coherent system. So I think it is true that it builds from the 
bottom up. But in a catastrophic, we have got to be able to 
reach down and to supplement the absence of a coherent system 
down below.
    And to get around that, we predeployed division supervisors 
with communications from both the Federal and the State teams 
to the three what we believed would be, most impacted counties 
with available resources to prop up, if you will, those great 
first responders and emergency managers and mayors down in the 
local areas.
    We did not do that to the degree we would have liked to 
have done it because, frankly, there was a paucity of trained 
personnel to do that. But I think overall, and I believe in 
ICS. I think that we need to make some modifications as we look 
at a catastrophic, however, because, to me, the unified command 
as it is outlined in the National Response Plan calls for 
unified command only at the top, a few people.
    I believe that unified command has to go all the way down 
the structure, and we have to be able to use State and Federal 
personnel to prop up local communities that have been totally 
destroyed by something like Katrina.
    Chairman Collins. I think that is an excellent point that 
perhaps we should take a look at whether the system is 
scalable, whether it makes sense to expect the State and local 
governments to play the role that is envisioned when the 
magnitude of the catastrophe may wipe out all of the capability 
at the State and local level.
    Mr. Carwile.
    Mr. Carwile. Yes, ma'am. And I think we can do that without 
in any way encumbering or impeding the constitutional 
authorities within the State constitutions of the local elected 
and appointed officials.
    Chairman Collins. Mr. Wells, under the current system, FEMA 
is besieged with requests from State and local governments for 
various commodities or forms of assistance. I would like to 
refer your attention to certain exhibits that are in the book 
that is by you, specifically Exhibits 8, 9, G, H, and I. They 
all reflect requests made by State and local government 
entities in Louisiana to FEMA for assistance.
    And I am just going to go through what those are. Exhibit 
8\1\ is from the New Orleans police department asking FEMA for, 
among other things, 400 M-4 weapons, 25,000 rounds of 
ammunition, 1,500 pairs of black military boots in various 
sizes, and 200 Crown Victoria police cruisers.
---------------------------------------------------------------------------
    \1\ Exhibit 8 appears in the Appendix on page 83.
---------------------------------------------------------------------------
    Exhibit 9\2\ is from New Orleans parish, and it asks for 10 
gas-powered golf carts to transport firefighters around Zephyr 
Field.
---------------------------------------------------------------------------
    \2\ Exhibit 9 appears in the Appendix on page 90.
---------------------------------------------------------------------------
    Exhibit G\3\ is from Mayor Nagin's office. It seeks a bus 
to Shreveport. Exhibit H\4\ is also from the mayor's office. It 
seeks portable air conditioning units to cool offices. And 
Exhibit I\5\ is from the Louisiana Department of Social 
Services, asking for a taxi to take one person from a hospital 
to a shelter.
---------------------------------------------------------------------------
    \3\ Exhibit G appears in the Appendix on page 99.
    \4\ Exhibit H appears in the Appendix on page 102.
    \5\ Exhibit I appears in the Appendix on page 104.
---------------------------------------------------------------------------
    As I was reading through these requests, they struck me as 
not the typical requests that State and local governments would 
make to FEMA during a natural disaster. But obviously, I don't 
have your experience.
    First, let me ask you, are these typical of the requests 
that you would expect to get from State and local governments 
to FEMA in the aftermath of a disaster?
    Mr. Wells. The problem with these is we got literally 
hundreds and hundreds of requests like this intermingled with 
valid requests. And when you get that volume that are not 
screened, it clogs down the system for legitimate requests that 
we need to process.
    I think this is an indication of just a lack of 
understanding--this came from the local level--the lack of 
understanding of what FEMA is there for, what we can do, and 
probably more importantly, what they can do themselves.
    Also, we normally with most disaster operations, when the 
request comes to the State emergency ops center, they will 
screen out all of those requests prior to us even getting them. 
So this is not typical. No, ma'am.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. Thanks to you 
three gentlemen.
    Having heard your opening statements and the questioning 
thus far, I go back to what I said at the beginning. You are 
three extraordinary professionals. I admire the work that you 
have done. We are lucky to have had you working and to have you 
still working, at least in two cases, for FEMA.
    And what strikes me as particularly significant is that you 
have something to add from the ground about what we could do to 
perform better in the next catastrophic natural disaster. That 
you are proud of your service in FEMA, but you are not 
defensive about everything that happened. And I think that is 
the spirit of this Committee. We are not out to get or protect 
anybody in this. We are out to figure out what happened.
    In response to what Senator Stevens said, just beyond what 
I have said when he was here, there is no question that New 
Orleans suffered a lot because the levees failed. It was a 
hurricane that would have had one level of damage. But the 
levees failing compounded it enormously. The failure of the 
levees was not only foreseeable, but was foreseen for years if 
the hurricane was above category 3.
    In fact, there is some reason now to believe that maybe the 
levees failed even earlier with a lower category impact of the 
hurricane because of some kind of negligence in design or 
construction. That is a very important question we have to 
answer.
    But having said all of that doesn't mean that FEMA was 
ready or did everything it should have done. And that is why, 
in a nondefensive way, we want to get at it. I will say and ask 
my first questions to you, Mr. Wells, that just a few of the 
things you have said so far suggest to me changes that ought to 
be implemented.
    For instance, as you said, and in some sense was expanded 
upon by Mr. Parr and Mr. Carwile in response to Senator 
Collins' questions, the bottoms-up approach makes a lot of 
sense in many disasters or emergencies. I wrote it down 
quickly, so I may have missed it. But when you get to a large 
disaster, it doesn't work so well. And when you get to a 
catastrophe, the bottoms-up falls apart.
    And part of what I think, therefore, we probably want to do 
as a government going forward is, as you all said, to put in 
place for FEMA and the rest of the Federal apparatus some plans 
in those more significant disaster situations when the bottoms-
up won't work, and the Federal Government really has to assume 
a significant amount of responsibility.
    Second very instructive thing I thought you said, you 
compared the preparation of Texas for Hurricane Rita to the 
prepareatin of New Orleans and Louisiana for Hurricane Katrina. 
Texas had an evacuation plan that was adequate to the 
circumstances. We all understand that Rita didn't hit at the 
level of catastrophe that Katrina did. But you saw a plan 
there, which you didn't see in the case of Louisiana.
    So this suggests to me that part of what we may want to do 
as a matter of law or regulation, probably law, is to have some 
more aggressive Federal oversight of the emergency planning of 
State and local authorities to the point of having to certify 
and make sure not just that we look at it, but that they 
actually have as comprehensive a plan ready for emergencies as 
possible.
    Mr. Wells, let me, in that spirit, go on. Because as I read 
the statements that you made to our staff in the interviews, I 
am struck by one quote after another in which you are willing, 
from the ground, in a very professional and confident way to 
say this just didn't go as it should have gone. And I am going 
to quote a little bit.
    You talk about FEMA's ability to respond, ``But FEMA is not 
trained. FEMA is not equipped. FEMA is not organized to do very 
large response operations.''
    You talk about inadequate communications, ``What we had was 
a communications kind of vacuum here in Baton Rouge.''
    You speak of FEMA's difficulties in staffing positions. 
``Just about every position we have, this is a secondary job 
for people. I think everybody fails to recognize this. Very 
important.''
    ``Our system is based on--this is whole interagency--who is 
available at this time, put them in there, get them out the 
door.''
    You acknowledge difficulties in planning. ``Now we did do 
some different things here that would need a lot of study like 
the continuity of government. We didn't work continuity of 
government at all. In New Orleans, they melted down. Their 
whole government was just melted down. We didn't have a plan 
for continuity of government.''
    And I was struck also by your views of the Stafford Act, 
``You need different laws. The Stafford Act is not--the 
Stafford Act is like bringing a donkey to the Kentucky Derby.'' 
Have you heard him say that before? ``It is not designed for a 
disaster this big.''
    So what I am saying is that your candor is very important 
and very appreciated and very necessary as we work together to 
try to fix this. And bottom line, it would appear from your 
statements that FEMA was lacking a plan, communications, 
appropriate personnel, and various other assets to deal with a 
catastrophic disaster of this kind.
    I want to give you a chance now to comment broadly on those 
points that you made in the staff interviews.
    Mr. Wells. I don't know if I can remember all that you 
said, sir. Let us talk about the FEMA part----
    Senator Lieberman. Yes.
    Mr. Wells [continuing]. And the Stafford Act and all that. 
We are not, we do not have the capability versus equipment, 
people, expertise, training to do large catastrophic disasters. 
We do not have teams. We do not work as teams. The people you 
get, and it is not just FEMA--this was a National Response 
Plan.
    And people talk ``FEMA this and FEMA that.'' But you know 
what? FEMA, once you get out in the field, we are a very small 
percentage of what is out there. And at the height of Katrina, 
I think we had, if you include the military, maybe 70,000 
people?
    Senator Lieberman. Right.
    Mr. Wells. And FEMA was maybe 1,500 or 2,000 of that. And 
even when the military went down, it was still a small part.
    Senator Lieberman. Am I right that full-time FEMA personnel 
are numbered at about 2,000? This is all around the country, 
not in that crisis.
    Mr. Wells. Right. There are only 2,500.
    Senator Lieberman. And so, what you are drawing on when you 
say 1,500 to 2,000 personnel for Katrina was redeployment of 
FEMA full-time personnel from elsewhere, but also a lot of 
part-time people or people just brought in for the crisis?
    Mr. Wells. Right.
    Senator Lieberman. I want to get to that later.
    Mr. Wells. Anyway, we do not have enough people. We rob 
Peter to pay Paul in disasters. Even in medium disasters, we 
are doing that. We have 10 regions we have to man. A regional 
office has to do three things. They have to do two things. They 
need to do three things, but they have to do two things.
    They have to set up a regional response coordination 
center. It is an emergency ops center. And they have to staff a 
team that goes forward to Louisiana like we did. Now you only 
have about 90 people in a region. That is woefully inadequate 
to do both. You cannot do both. Pick one.
    When you get to a field, when we got to Louisiana, we had 
enough staff for our advance team to do maybe half of what we 
needed to do for a day shift. We had to do a day and night 
shift. So we had to prioritize.
    We did not have the people. We did not have the expertise. 
We did not have the operational training folks that we needed 
to do our mission. And it has been this way for years, sir. 
Years after years, you are working on the margins. You are 
getting people from other agencies with no experience or no 
experience in response operations. They are just filling a 
billet. We have never trained together.
    We need to really train together as a team. We need to work 
as a team. What you have with this National Response Plan in 
the field is we have no unity of command.
    Senator Lieberman. Right.
    Mr. Wells. FEMA has more of a coordination role. We need to 
have a command role, where we can direct the sub-elements 
assigned to us to do things. And it doesn't play out that way, 
despite what the National Response Plan indicates.
    Senator Lieberman. That is a very important point. In some 
sense, as I read your testimony, as I hear you today, it is as 
if you are the generals, and you are first rate. But we haven't 
really given you an adequate trained force to go into battle 
with you.
    I want to ask a few questions similar to Mr. Carwile. I 
know you also expressed some concern about FEMA's staffing 
levels and problems. In your opening statement, you talked of 
how FEMA needs many more trained people.
    I know that you had a chance to look at these problems. I 
wonder if you would describe the impact of funding decisions on 
FEMA's effectiveness, particularly the ERT-N team. And let me 
refer you in particular to a memorandum that I believe you 
contributed to, dated June 30, 2004, which is Exhibit 1.\1\
---------------------------------------------------------------------------
    \1\ Exhibit 1 appears in the Appendix on page 72.
---------------------------------------------------------------------------
    In it, you refer ``to the unpreparedness of national 
emergency response teams.'' You say the teams are unprepared 
because of ``zero funding for training exercises or 
equipment.'' So I ask you to comment on that in light of what 
you found in the response to Katrina.
    Mr. Carwile. Yes, Senator Lieberman. This has long been a 
concern of mine, as well as Mr. Wells.
    After September 11, I was asked by Director Allbaugh at the 
time to reconstitute a national team, an emergency response 
team national, and to write an operations plan and be prepared 
to respond to the next terrorist event. It was an all-hazards 
plan, but the focus, obviously, at the time was on terrorism.
    I took a small group from New York City, our joint field 
office there, went down to Atlanta and put together a team of 
very seasoned emergency managers and with members of other 
Federal agencies, including the military, and wrote what was 
known then as an ERT-N op plan. We were then able to build a 
team to about 125 individuals, hand picked, from around the 
country, and we were able to routinely exercise that team 
because we had the funding in place to do so on the plan 
against several scenarios.
    Senator Lieberman. Were these full-time FEMA employees?
    Mr. Carwile. Yes, sir. For the most part. We did have some 
reservists, which we called disaster assistance employees, on 
the team. But the intent was to use them only in certain areas 
where we have almost no full-time employees to do certain 
functions within FEMA. We rely solely on our reservists for 
things like administration and that sort of thing.
    We were asked to take the team to the Winter Olympics in 
Salt Lake City, and we exercised and exercised. And as well as 
buying satellite communications and being able to, we felt we 
had a robust plan, a well-trained team, and communications.
    It wasn't long after that, and the longer we got away from 
September 11, the less funding we had. Funding, it appeared to 
us--and I am just a field guy, not a headquarters person. The 
small amount of money we did have was being diverted, and we 
got no money in the out-years. So there was no money.
    Then we morphed that team into another team. The red team 
morphed, and we split it up and formed a blue team. And 
subsequently, a white team, which was a hollow team. But there 
was never any money. In former years, prior to September 11, 
when I was on a national team, we at least had money to do one 
training event a year and one meeting for the leadership of the 
teams. That money also went away.
    Senator Lieberman. So in that period of years that you have 
described post-September 11, there was no money for training 
exercises?
    Mr. Carwile. Except for that first year, sir.
    Senator Lieberman. That first year.
    Mr. Carwile. Yes, sir. And after that, the money went away, 
and the emphasis on the readiness of those teams, as I said in 
my opening comments, I came from 30 years in the military. We 
had a very rigorous reporting system and the red/amber/green to 
report unit status. We had nothing like that in FEMA, although 
those things were being--anyway, I think there was a great 
problem in resourcing those teams.
    Senator Lieberman. Yes. So this was not only a natural 
disaster waiting to happen, this was a personnel, kind of a 
FEMA disaster waiting to happen because we weren't giving you 
the resources to get ready for this.
    If I may, Madam Chairman, I just want to ask one follow-up 
question because I think it is important. It is something I 
have come to learn myself, in the course of this investigation, 
which speaks to the fact that FEMA has relatively few full-time 
personnel.
    And this is the response teams and the so-called 
reservists, which in the interview you did with our staff, it 
seemed to me you were saying that these teams are mostly names 
on rosters. They are not really teams because they don't train 
together, they don't work together, and they don't really have 
a budget.
    And I wonder if you could just give, for the record, a 
little background on what does it mean to be a reservist for 
FEMA in this regard? Who are these people, typically? And 
obviously, I assume you believe, based on what you said before, 
that if they are there as reservists that we ought to be 
spending more money training them?
    Mr. Carwile. Yes, sir. I will specifically speak to the 
fine Americans that form the reserve cadre, which we call the 
disaster assistance employees, which we rely on almost to a 
great extent to our ability to surge personnel capacity to 
respond to any large disasters. In other words, in Florida last 
year, probably 90 percent of the workforce were disaster 
assistance employees.
    Those employees have traditionally, if you look at the 
demographics, many of them are retired from all sorts of walks 
of life. They are people you would be very proud to be 
associated with. They bring skill sets from decades of 
experience in various parts of the civil sector and some from 
the military.
    They are inadequately recompensed for the time they spend 
on active duty. They have absolutely no benefits. None, no 
benefits whatsoever, even when they are on active duty, we call 
them up. So, for example, if there is a holiday, and you happen 
to be on a big disaster, and there is no benefit. If you want 
to let a few people off, you can't even pay them for being off 
on the holiday.
    Senator Lieberman. Am I right? They don't really train as 
units?
    Mr. Carwile. Sir, was that the individual part of your 
question?
    Senator Lieberman. Yes.
    Mr. Carwile. The collective part of your question and the 
teams, there is no training money and very little. Now the 
regions, as Mr. Wells indicated, they have a responsibility to 
field an emergency response team for a small to a mid-level 
disaster. They may, because they are all pretty much co-
located, have an opportunity to do some, what we used to call 
in the Army, collective training as opposed to individual. But 
there is no money to do team training.
    So if you go out on a disaster, to me--and I was very 
fortunate in Mississippi because I had a team from my home 
region that I have worked with for years--you need to know how 
that other person is going to respond in a crisis. You need to 
have gone through.
    In the military, of course, we have a very rigorous 
exercise program that is evaluated. And I have long advocated, 
and it was included in a white paper that I wrote last year, 
that we should have a similar system and have emergency 
deployment readiness exercises for these teams, and go out and 
do a rigorous evaluation and give feedback to the team members, 
much like we do in the military. But that is not done, sir.
    Senator Lieberman. Yes. That is a real big gap that we have 
to figure out how to fill. I assume that there were a lot of 
people on the reserve rosters who were called up to respond to 
Hurricane Katrina?
    Mr. Carwile. Sir, one of the national teams was deployed to 
Louisiana, that is the blue team--the blue team went down. In 
Mississippi, we had a lot of members that were on the national 
teams, but we did not deploy a national team, per se. There are 
only two remaining. Those two teams were reconfigured probably 
in the last month or so before Katrina.
    They were brand-new teams. New members were put in there, 
some of whom have been on other teams in the past. And they 
were pared down to, I think, around 25 persons per team, and 
they, to my knowledge, never had an opportunity to train 
together beforehand.
    Senator Lieberman. Thanks, Mr. Carwile. Thanks, Madam 
Chairman.
    Chairman Collins. Thank you. Mr. Carwile, I want to follow 
up with some additional questions on this June 2004 memo that 
Senator Lieberman just questioned you about.
    First of all, this memo was an extensive memo. It includes 
many significant recommendations, and it also sounds the alarm. 
There is the heading on page 3 that says ``unpreparedness of 
national emergency response teams.'' It says ``unprepared 
teams, zero funding for training exercises and team 
equipment.''
    It talks about the need for a single division for response 
and recovery. It mentions that there had been four different 
budget proposals submitted over an 18-month period.
    And just so we understand, this is from highly trained and 
important professionals within FEMA. It is the Federal 
Coordinating Officers. Did you get any response to this memo 
from Michael Brown or anyone else in his office?
    Mr. Carwile. Madam Chairman, first of all, I wasn't the 
author of the entire document. But these two----
    Chairman Collins. You were the author of part of it?
    Mr. Carwile. Yes, ma'am. These two issues were--and I am 
guilty as charged on that. Ma'am, we put this together, and 
probably Scott may have had input as well. I am pretty sure he 
did.
    Former Director Brown had asked the Federal Coordinating 
Officers for their input on things we thought were critical. 
And my former colleague Mike Hall was elected by the rest of us 
to put this together, each of us having some input. These were 
mine.
    Mike related to me that this had been submitted to the 
eighth floor, being kind of the command group in FEMA. And as 
far as I know, there was never any feedback on any of these 
issues.
    Chairman Collins. So, as far as you know, there were no 
actions taken in response to this detailed set of 
recommendations that the FCOs sent to Secretary Brown?
    Mr. Carwile. That is correct, Madam Chairman.
    Chairman Collins. If the recommendations in this June 2004 
memo had been implemented, do you believe that the response to 
Katrina would have been improved? I realize that is 
speculative. But what is your best judgment?
    Mr. Carwile. Yes, ma'am. I can't help but believe that 
having trained and effective teams that are well equipped and 
have had opportunities to work together through training and 
rigorous exercises would not have made a difference.
    Again, I felt very fortunate because many of my colleagues 
with me in Mississippi had been with me on a national team in 
years past. It was kind of coincidental.
    But I can't help but believe that trained and ready teams, 
people who have worked together, would not have made some 
difference in a positive way.
    Chairman Collins. Could you explain to us why you think 
that a single division for response and recovery would help 
improve the response to future disasters?
    Mr. Carwile. Yes, ma'am. And first of all, that is not a 
novel idea. That was formerly that way. My former colleague is 
sitting right back here, who was formerly the associate 
director for FEMA for response and recovery. It was only with 
the formation of the Department of Homeland Security that the 
two efforts, that is response and recovery, were bifurcated.
    Formerly, there was a greater among equals division within 
FEMA was response recovery. Because when you go to the field, 
you don't do response, and then all of a sudden, one day you 
say, ``Well, we are going to quit doing response. Now, guys, we 
are going to start doing recovery.'' It is a continuous effort.
    I was looking at our timeline in Mississippi. On September 
2, we were putting disaster recovery centers out to meet the 
needs of the people to be able to communicate with us and the 
Federal and the State officials.
    So, to me, and it is also from a person in the field, it is 
a little bit difficult to know who the heck you work for at 
headquarters. You know, on some issues, you go to one person. 
Other issues, you go to another.
    When they first bifurcated them, I was in the field, and we 
would talk to what is now called the National Resource 
Coordination Center, then known as the Emergency Support Team, 
and you really didn't know who you were reporting to. Because 
was it the response guys or was it recovery guys?
    So, to me, it is a natural fit. It was an unnatural thing 
to break it up in the first place.
    Chairman Collins. Thank you.
    I would now like to turn to the issue of evacuation. One of 
the problems that New Orleans had was evacuating citizens 
before the storm. Mr. Wells, are you aware of any requests from 
the City of New Orleans for assistance with evacuation? Any 
request to FEMA?
    Mr. Wells. No. We would get the request from the State. The 
city would come to the State, and the State would come to us. 
And for any pre-landfall evacuation requests, we got none, 
zero. And as I mentioned earlier, that was totally unlike what 
we did in Texas, where we were actively involved.
    Chairman Collins. Now I understand that you were involved 
in the Hurricane Pam exercise. Did that include a segment on 
the evacuation of New Orleans and the vicinity? Was that part 
of the exercise?
    Mr. Wells. No, ma'am. Evacuation was not part of it. When 
we set up the Pam exercises, we were developing it, we worked 
with the officials in Louisiana. And they determined I think it 
was five to eight functions that they wanted us to work as 
Federal/State partners in it.
    And I think we had talked about evacuation, and they said 
let us leave that off the table because the city and the State, 
we have been working evacuation issues. And we will park that 
over there, and we will just work on these other issues. So 
that was not one of the issues we addressed in the Pam 
exercise.
    Chairman Collins. And whose decision, just for clarity, was 
it to not include evacuation as part of the Hurricane Pam 
exercise?
    Mr. Wells. Well, it would have been the deputy director of 
emergency management at the time in Louisiana.
    Chairman Collins. So it was a State official?
    Mr. Wells. The State. Yes, they determined the issues that 
we were going to be looking at for Pam.
    Chairman Collins. Thank you.
    Mr. Parr, another issue of evacuation arose after the 
storm, and that was the evacuation of the Superdome. You have 
previously told the Committee that you worked with the National 
Guard at the Superdome throughout Tuesday night and that you 
had a plan that was actually approved by your supervisors at 
FEMA and was in coordination with the National Guard to 
evacuate the victims at the Superdome, beginning Wednesday 
morning. Is that correct?
    Mr. Parr. That is correct.
    Chairman Collins. Could you explain what that plan was?
    Mr. Parr. Sure. As the population of the Superdome started 
growing almost exponentially on Tuesday and with the waters 
rising, the breach wasn't able to be closed, we realized we had 
to get the people out of the Superdome. We felt, the Guard felt 
that there would be mass confusion, violence once the lights 
went out in the Superdome. That was the only thing that was 
keeping people together.
    We came up with a plan in conjunction with the Guard. It 
was the chief of staff or the adjutant general, the ops 
officer, the commanding general that was there for the Guard. 
What we were going to do was use Chinook helicopters because 
they are the largest in the U.S. inventory. The Guard had 
availability of three.
    We came up with a plan to move anywhere from 300 to 500 
people an hour out of the Superdome by landing helicopters 
every 15 to 20 minutes. At the time, we estimated about 15,000 
people in the Superdome. We figured we could clear them out 
within about a day, about 30 hours or less, once we started the 
evacuation with an additional 9 helicopters.
    In addition to that plan, I should say it would be short 
haul trips. The airport was dry. I believe Belle Chase, which 
is a base, was also dry. We would have buses meet them there 
and then take them to shelters after that.
    Chairman Collins. That sounds to me like a very good plan 
that would have helped to evacuate people from a situation that 
was becoming increasingly unsanitary and dangerous. Why wasn't 
it implemented? In fact, the evacuation did not occur the next 
day, despite your having what sounds like a very good plan.
    Mr. Parr. That is correct. At least the evacuation for the 
general population didn't begin the next morning, as we had 
hoped. At some point during the early morning hours--this was a 
plan we worked on in the overnight hours. None of us slept at 
all as we developed this and had constant conference calls with 
Washington, DC.
    We couldn't reach our command group at the EOC in Baton 
Rouge because of communications, but we were able to reach our 
response and coordination center in Denton, Texas. So we would 
have conference calls with those two groups.
    We were notified at some time around 5 a.m. that General 
Honore had taken charge or was in charge of the evacuation of 
New Orleans and that all plans were to be put on hold, that he 
would be directing the evacuation. And that was the direction I 
got from the command group of the National Guard that they 
would be awaiting his orders.
    Chairman Collins. So, as far as you know, General Honore 
canceled the plan?
    Mr. Parr. Well, I can't speak to specifically what 
happened, but I will tell you that the Guard told me I got a 
call from General Landreneau at some point probably between 5 
and 6 a.m. in the morning, thanking me and thanking us for our 
hard work. But they were awaiting orders of General Honore.
    Chairman Collins. So instead of the evacuation from the 
Superdome starting on Wednesday morning as it would have under 
your plan, the plan worked out with the National Guard, when 
were people actually evacuated from the Superdome?
    Mr. Parr. The start for the general population was about 
Thursday morning, about 24 hours later.
    Chairman Collins. So the result of the delay of that 
evacuation plan, which you had worked all night to put 
together, was that thousands of people in the general 
population in the Superdome had to spend another very 
unpleasant, hot, dangerous night in the Superdome. Is that 
correct?
    Mr. Parr. That is correct.
    Chairman Collins. Mr. Wells, I noted in your bio that you 
had been the liaison from DOD to FEMA back when you were 
working for the Department of Defense. DOD has an unusual 
relationship with FEMA. As I understand it, FEMA can assign 
other agencies certain missions. But with DOD, it is my 
understanding the Department has to agree to accept the 
missions from FEMA, and it is a much longer process. Is that 
correct? Is my understanding correct?
    Mr. Wells. Yes. When all of the agencies come into the 
joint field office and we give what we call mission assignments 
or taskings out to these agencies to do specific things, the 
approval authority generally rests with the person in the joint 
field office, and it gets done immediately.
    But the Department of Defense, their approval authority 
rests with the Secretary of Defense. And so, it has to go 
through a long process of validation and through their chain of 
command to get it approved. And that is more than awkward. It 
is more than cumbersome. It just takes a long time to execute.
    I need to say, parenthetically, that in Katrina we did not 
see that lag that we normally see in most disasters, and they 
were fairly responsive.
    Chairman Collins. But from your perspective, since you have 
seen it both as a DOD employee as well as a FEMA employee, 
should the Department be treated differently?
    Mr. Wells. No. Having DOD is sort of like somebody giving 
you an 800-pound gorilla. You are supposed to take care of that 
gorilla and be responsible for that gorilla. But that 800-pound 
gorilla is going to do what he wants to do, when he wants to do 
it, and how he wants to do it. So you lose some of that control 
in your organization with the Department of Defense structure.
    What they have is, when General Honore came in, for 
example, he had really two organizations. He had a defense 
coordinating officer, who was in that joint field office. And 
he had a brigadier general, Mark Graham, with the staff, who 
worked directly with us out of the joint field office. And that 
fell within the architecture of the National Response Plan, and 
it was more organized.
    General Honore had a joint task force that went and did 
things separate and beyond that. He did great things. Him and 
his joint task force did great things, but it wasn't 
coordinated, and it led to some problems.
    Chairman Collins. Mr. Carwile, did you have something you 
would like to add to that?
    Mr. Carwile. Madam Chairman, in a previous life, I served 
as a defense coordinating officer, as Mr. Wells talked about, 
and I have had discussions with Secretary McHale on this very 
subject. And we spoke earlier about a unity of command and a 
unified command, and what Mr. Wells just described is outside 
of unity of command, unity of effort, and a unified command.
    In other words, you can't have two Federal agencies, even 
if one is an 800-pound gorilla, operating independently of 
other Federal agencies. And there is a difference of opinion of 
my personal opinion as a private citizen between what I read in 
the Stafford Act and the way that the current secretary and 
assistant secretary for homeland defense read their 
authorities.
    And as Mr. Wells indicated, we mission assign other Federal 
agencies. DOD, I personally know--Secretary McHale and I have 
discussed this--takes exception with even the term ``mission 
assignment'' from FEMA to the Department of Defense.
    Chairman Collins. Mr. Parr, do you have anything to add to 
that debate?
    Mr. Parr. I can tell you on a local level. After leaving 
New Orleans, I worked in St. Bernard Parish for about 30 days. 
I think Mr. Wells' description of the 800-pound gorilla, 
because we had a major significant military DOD presence there, 
was true.
    They did some great things. The men and women that were 
there were truly phenomenal. But keeping them--and I will use 
this term, but it is not pejorative--reined in to keep them 
in--remember, when they were there on the ground, it wasn't me 
that was directing operations in the parish. It was the parish 
leadership. It was the parish president. It was the sheriff. It 
was the parish emergency manager.
    And keeping them from running over that was my job because 
I was supposed to be the lead Federal person there. And it is 
difficult. But they do bring a lot to the table, and they are a 
necessary part of the National Response Plan.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks again, Madam Chairman.
    The more we go on, the more I keep coming back to military 
terms because, in some sense, you are in a real crisis, almost 
a battlefield situation. And one I want to talk about is 
situational awareness.
    Obviously, in military matters, we are, through technology, 
dramatically improving the situational awareness of our forces. 
And that is not a bad ideal to set up for emergency response 
here as well. But it was, really in this case, lacking, again 
beginning with the fact that this was an extraordinary 
disaster. But part of what I want to get at is the details of 
that.
    Mr. Parr, I am going to ask you the first questions. We 
have seen photographs and video showing the absolutely 
devastating situation at the convention center. I know that 
most of the accounts have focused on what went on at the 
Superdome. But I want to ask you to talk a little bit about 
what was unfolding a mile down the road at the convention 
center, where thousands of recently homeless people sought 
refuge from the storm.
    I have taken a look at your notes from August 30, which is 
Exhibit F, and they mention that you had a briefing with Bill 
Lokey and Scott Wells. And your notes mention the convention 
center. But we don't see anything in your e-mails or any other 
documents from yourself or the FEMA team regarding the 
circumstances in the convention center on Tuesday, Wednesday, 
or Thursday.
    So I wanted to ask you during the briefing with Mr. Wells 
and Mr. Lokey, first, what did you discuss, to the best of your 
recollection, regarding the Superdome?
    Mr. Parr. OK. You have an advantage over me, Senator, 
because since this was kind of a last-minute request for me to 
appear before you, I left my notes in Texas, where I am 
assigned right now. So I am not able to look and see exactly 
what you are referring to.
    Senator Lieberman. I am glad to try to get our staff to 
give it to you.
    Mr. Parr. I think it is Exhibit F?
    Senator Lieberman. Yes, it is Exhibit F\1\ in that exhibit 
book.
---------------------------------------------------------------------------
    \1\ Exhibit F appears in the Appendix on page 94.
---------------------------------------------------------------------------
    Mr. Parr. Just one second. I am sorry.
    Senator Lieberman. You went to the same handwriting course 
that I did.
    Mr. Parr. You noticed that, sir.
    Senator Lieberman. It is on page 8, noted at the bottom, 
0008.
    Mr. Parr. Let me address, I believe, the phone call you are 
speaking about because this was probably the only time we were 
able to get a hold of the EOC, where Scott Wells, the deputy, 
and Bill Lokey were.
    Senator Lieberman. So they were in Baton Rouge?
    Mr. Parr. Baton Rouge. Correct. And this was probably the 
only time we had any conversation, certainly any extended 
conversation with them.
    Senator Lieberman. And at that point, you were----
    Mr. Parr. I was? This was Tuesday. I would guess early 
afternoon?
    Senator Lieberman. Right.
    Mr. Parr. Or mid afternoon?
    Senator Lieberman. And you had arrived a little earlier 
that day.
    Mr. Parr. We had arrived at some point Tuesday morning or 
late morning.
    Senator Lieberman. Right.
    Mr. Parr. This is when we went from the Superdome to the 
city EOC, which was across the street. At that point, we had 
called back to the State EOC. The primary purpose of that call 
was to give the city's list of priorities to the EOC there up 
at the State, for FEMA and the State to start working on those 
priorities.
    If the call was an hour, the biggest part of that call, 
probably 45 or 50 minutes, was getting visibility on what was 
being done to close I believe it was the 17th Street Canal 
breach.
    Senator Lieberman. Right.
    Mr. Parr. That is what was filling up the city, and there 
was a whole domino effect of things that happen if that breach 
was not closed as quickly as possible. Just to mention two of 
those things. The power plant, once that went under water, and 
it is my understanding that it was within inches--2 or 3 inches 
of going under water--the city would take about 6 months, it 
would probably still be under water right now----
    Senator Lieberman. Yes.
    Mr. Parr [continuing]. If that was submerged. The emergency 
power at the Superdome was literally within 1 inch of 
overflowing the sandbags that were protecting the emergency 
generator there. We would have lost power there. It would have 
caused chaos there.
    So gaining visibility on that. Talking about it was the 
city--I am not sure of his exact title. I believe he was either 
the emergency manager or the homeland security person.
    Senator Lieberman. Let me interrupt you. By ``gaining 
visibility,'' you mean trying to get attention from the EOC 
onto those two significant problems you have just talked about?
    Mr. Parr. I was informed by Colonel Terry Ebert, who is the 
city's, I think, homeland security director, that the breach--
--
    Senator Lieberman. Right.
    Mr. Parr [continuing]. That the Army Corps had stopped 
attempting to close the breach, and we weren't sure why. And 
there were some significant issues with them trying to close 
the breach, and they were unable to do it, and they were 
working the problem. We did not know that at the time, which is 
one thing that prompted the call.
    So getting that back up on the table and letting them know 
back up at the State why it was so important to get that 
closed. Which that did not happen, at least not at that point, 
was the primary purpose of that call, and in addition, the 
other priorities that the city had, the Colonel, Terry Ebert, 
gave it to them on that call.
    Senator Lieberman. Yes. Did you become aware in that 
conversation of the problem of the growing crowds at the 
convention center?
    Mr. Parr. Let me say that we were helicoptered into the 
Superdome and had no movement, no visibility of the city. The 
only thing we had was what the National Guard had given us. I 
don't quite see my note on the convention center. I am sure I 
was told by the Guard that there were issues at the convention 
center.
    Like I said, I don't have my notes. But because we were, in 
effect, literally on an island or stranded at the Superdome, if 
I have a note here about the convention center--OK, yes. I 
don't think, that was not a note about conditions at the 
convention center. I see it now. I am not even sure I was aware 
of conditions at the convention center at this time.
    What that was, if you notice it says ``convention center, 
EOV or com suite,'' that was mentioned as another place that we 
can carry out operations because of the difficulty of carrying 
out operations at the Superdome because of the situation there. 
I was trying to identify another place in the city where we can 
operate from, and that was a place that was mentioned.
    Senator Lieberman. Yes. So, obviously, you were at the 
Superdome. So you had an awareness of what the conditions were 
there?
    Mr. Parr. Yes, sir.
    Senator Lieberman. But you did not know at that point what 
the situation was at the convention center?
    Mr. Parr. Correct. There would be snippets from certain 
Guardsmen who were patrolling the city saying that the 
convention center was filling up. I am not sure when or how 
that was brought out to me. We had no personal knowledge of 
what was going on at the convention center.
    As a matter of fact, I learned more about what was going on 
at the convention center when I left and went back up to Baton 
Rouge. Then I had visibility on it.
    Senator Lieberman. Yes. So during that period of days 
before you went back to Baton Rouge, which, if I recall 
correctly, was Tuesday, Wednesday, and Thursday of that week?
    Mr. Parr. Correct.
    Senator Lieberman. The FEMA teams that you were involved 
with did not do anything with regard to the convention center?
    Mr. Parr. No, sir, and I think this is an important point 
that we need to remember, and I alluded to this earlier in one 
of the answers to one of the questions that were given. There 
were no, to my knowledge, identified shelters in the City of 
New Orleans.
    Senator Lieberman. Right.
    Mr. Parr. That is a very important thing. What was used as 
a shelter was any place that was dry. Any overpass, any high 
piece of ground. It is important that the city had identified 
shelters and areas of refuge, and they did not.
    So I think that was an ad hoc--since it was largely dry, it 
is my understanding--an ad hoc shelter that people flowed to 
simply because it was out of the pool of water in the city.
    Senator Lieberman. Thanks, Mr. Parr.
    Mr. Wells, you were a senior Federal official at the 
emergency operating center in Baton Rouge. When did you become 
aware of the crowds and the problems at the convention center 
in New Orleans?
    Mr. Wells. To be candid, I am not exactly sure. It was 
probably around I would say Wednesday or Thursday, we got calls 
from here in Washington, DC. ``What is going on at the 
convention center?'' And I think they were getting reports from 
the media.
    Senator Lieberman. Yes.
    Mr. Wells. And as I recall, we tried to get communications 
up with Phil and his folks. We couldn't get communications with 
him to have them go check it out. And so, we went to the State 
and asked them what they knew, and they used their National 
Guard and State police assets to give us some visibility. And 
the big issue was how many people were there? And what is going 
on, and how many people were there?
    And we did not get a clear picture. It probably took 24 to 
48 hours from the time we started asking the question to get a 
picture of just what was going on in the convention center.
    Senator Lieberman. So your answers, I think, illustrate the 
real problems there were in communications under the 
circumstances there and the inability to have anything 
approaching the kind of situational awareness that you would 
want to have or we would want you to have.
    I want to go back to something you said in your interview 
with our staff, Mr. Wells, that there was ``a big 
communications void,'' which created a black hole in 
communication abilities from the emergency operating center in 
Baton Rouge and New Orleans. And if I asked you why, I know it 
may be an obvious question. But for the record, since obviously 
FEMA is supposed to be prepared for emergencies of this kind, 
why did that black hole of communications occur?
    Mr. Wells. I don't know. I was told all of the lines were 
saturated. The big vacuum was in Baton Rouge. No one could get 
in to us, and we couldn't get out to anybody. The people in New 
Orleans could talk to our regional office in Texas in a 
degraded way, and they could talk to the national office here 
in Washington, DC. But nobody could call us in Baton Rouge, and 
we couldn't call out. So that was the biggest vacuum in Baton 
Rouge.
    Senator Lieberman. Mr. Parr, I know that at some point in 
your testimony or work with the staff, you described FEMA's Red 
October, the mobile command post 12 feet longer than a tractor-
trailer with the most elaborate state-of-the-art capabilities 
for communications, which would have served as the base for 
communications in New Orleans.
    As the vehicle was in transport to the Superdome, I would 
just say for the record, it was determined that you could not 
get it into the area, and you were left with no communications 
at the Superdome. Am I right about that?
    Mr. Parr. That is largely correct, sir. That was the 
original intention to either move that vehicle or a similar 
vehicle into the Superdome, but because of the water around the 
stadium, we could not get it in.
    Senator Lieberman. And there was no backup plan for 
anything else in that kind of circumstance?
    Mr. Parr. Well, sir, initially the backup plan was to have 
a smaller vehicle, a vehicle that was a little bit more 
maneuverable get into the stadium. I don't believe that the 
situational awareness allowed us to know. I don't believe that 
it was common knowledge. It certainly was not my knowledge that 
water would prevent us from getting those vehicles into the 
Superdome.
    Senator Lieberman. Right. And this is the final question 
because my time is up. You did previously state, as I mentioned 
and Senator Collins did, that your access to communications was 
``extremely, extremely limited'' and affected your operations 
effectiveness, what you were able to do in the circumstance by, 
in your opinion, about 90 percent. Is that right?
    Mr. Parr. Yes, sir. And just to expand on that a little 
bit, as I look back on the events that happened, we were able 
to achieve a lot. At the time, it was extremely frustrating. It 
might take 2 or 3 hours to get through to the people we were 
calling, but we did get through and we did get things done as 
far as the evacuation of the Superdome. We made sure that we 
kept some eye on visibility of commodities so people ate.
    But I believe we could have accomplished a lot more if we 
had the proper communications.
    Senator Lieberman. Sure. And when you did get through on 
the calls, what were you using?
    Mr. Parr. The National Guard had two communications 
vehicles, one with one phone and one with I think three or four 
phones. So it was kind of like waiting in line. When they 
finished their business, then we got to go.
    Senator Lieberman. Thanks. Thanks, Madam Chairman.
    Chairman Collins. Thank you.
    Just a couple of concluding questions. First, I realize all 
of you were deployed to the Gulf region in your roles as FCOs. 
But are any of you living in the Gulf region? Mr. Wells.
    Mr. Wells. I am staying there.
    Chairman Collins. Pardon me?
    Mr. Wells. Yes, I will be in Baton Rouge.
    Chairman Collins. You are now. But prior to being deployed 
there, where were you living?
    Mr. Wells. I was living in Texas.
    Chairman Collins. Thank you. Mr. Parr.
    Mr. Parr. I have only been living in the Gulf since August 
28. But my home now or at least where I rent an apartment is in 
Boston, Massachusetts.
    Chairman Collins. I noticed you were Region 1, Senator 
Lieberman's and my region.
    Mr. Carwile.
    Mr. Carwile. Ma'am, my family is from Gulf Shores, Alabama. 
It is in Baldwin County, Alabama, on the coast. They have 
evacuated probably six times in the last 2 years, with my 
mother, who turned 89 last month. I personally reside in the 
State of Hawaii, though.
    Chairman Collins. I was surprised, when I looked at where 
FEMA officials were deployed from, that they weren't 
individuals already assigned to the Gulf region. Would it 
increase the effectiveness of FEMA officials if they were from 
the region to which they are deployed, or does it not make any 
difference?
    The reason I ask is there have been some indications that 
FEMA officials were just not very familiar with New Orleans or 
the areas to which they were assigned. And I am wondering if it 
would be better to have the FCOs come from the area or whether 
it doesn't matter. Mr. Carwile.
    Mr. Carwile. Madam Chairman, the Congress authorized FEMA 
25 Federal Coordinating Officer positions back in 1999.
    Chairman Collins. Right.
    Mr. Carwile. And those positions were sprinkled throughout 
the country. And ideally, the Federal Coordinating Officer 
would come from the home region impacted. For example, if the 
State of Maine were impacted, hopefully, Mr. Parr would be the 
person, as he would be.
    What happens in a very large disaster like Katrina, the 
resources are quickly stripped down in terms of personnel who 
are familiar to the area. So over in Alabama, Mike Bolch, who 
was the Federal Coordinating Officer, did come from Atlanta in 
the home region. But FEMA can get very quickly overwhelmed in 
terms of having people with regional experience.
    And Mississippi, fortunately, the team from Region 9, which 
was California and the West, that we brought in had been with 
Mississippi during Hurricane Dennis and also with a short 
exercise we had prior to the hurricane season in Washington.
    Chairman Collins. Mr. Parr, do you have anything to add to 
that?
    Mr. Parr. I will say all of us are national assets, and 
traveling is very demanding on all of us. I know in the 2 years 
I have been in the Federal Coordinating Officer program, I have 
traveled about 300 days.
    Chairman Collins. Wow.
    Mr. Parr. I don't know. I think it is important that we 
have significant representation from the region that is 
experiencing the disaster. So, for instance, Scott Wells is a 
resident and member of Region 6, which is a large part of the 
Gulf Coast.
    The fact that I come from Region 1 and have a lot of 
experience in Region 2, which would be the New York area, I 
don't know is significant. I think all of us are kind of, to a 
large extent, plug and play. You bring us to where we need to 
go, and the actions that we have to do are pretty much the 
same.
    Chairman Collins. Mr. Wells, are you from the region?
    Mr. Wells. Yes. And I think there is value added. You get 
your value in the peacetime planning. For example, with 
Katrina, prior to Katrina, in July, just a month before, 
Hurricane Dennis was threatening Louisiana, and we deployed our 
response team to Louisiana and did some training with them. So 
we had built up some experience with the State and did some 
hasty planning and things like that. And that was a benefit 
when we went back for Katrina.
    Chairman Collins. Thank you.
    Mr. Carwile, my final question is for you. Both Senator 
Lieberman and I have been to the Gulf region since the 
hurricane struck. The damage in New Orleans and Louisiana is 
incomprehensible. But what really astonished me was the 
devastation in Mississippi. It is just extraordinary.
    Do you think Mississippi has gotten the attention that it 
needs compared to Louisiana? I am not trying to play off one 
State against another. That is not my purpose. But the 
devastation from wind damage in Mississippi matches in many 
ways the horrendous devastation from water that we saw in New 
Orleans.
    Mr. Carwile. Madam Chairman, I have been on, I think, every 
major disaster in the last 9 years with FEMA to include four 
hurricanes last year in Florida and a number of super typhoons 
in the Pacific, and I have never seen--and I had two combat 
tours in Vietnam, special forces. I have never seen the damage 
that I saw and you saw in Hancock County and Harrison County. 
Total devastation of entire communities.
    We talk about communications. I have never been in a 
situation where we had such a shortfall in communications. Last 
year in Florida, fundamentally, we could use cell phones. 
Practically, just most of the time, we had to rely on sat 
phones. But I am talking about no communications.
    Senator Lieberman talked about situational awareness. Very 
difficult to have down there other than overflights. I know 
that Governor Barbour and his staff in the State of Mississippi 
have done an extraordinary job of leadership. I do think that 
there has been an awful lot of focus on the visual on New 
Orleans, and obviously, there was a great deal of suffering 
there that needed to be tended to.
    I do think that there could be more attention paid to the 
restoration of the Gulf Coast of Mississippi, especially. I say 
``Gulf Coast,'' but I was in Jackson when a storm--we had a 
category 1 hurricane go over Jackson. We were without power in 
Jackson for days and days, all the way up to the northern part 
of Mississippi.
    So the visuals are on the Gulf Coast, and obviously, that 
is terrible. In addition to wind damage, the 30-foot surge just 
cleared off whole counties practically. It was total 
devastation. But I would concur if someone were to suggest that 
Mississippi probably deserves more attention than it has been 
getting, ma'am.
    Chairman Collins. Thank you. Senator Lieberman, do you have 
any questions?
    Senator Lieberman. I do, a couple. I will try to do them 
quickly. Thanks, Madam Chairman.
    I want to come back to the discussion about the 
communications and situational awareness, and I am struck that 
the National Guard had those two communications vehicles in the 
Superdome. And I understand this is always a question of 
hindsight is clearer than foresight.
    The understanding was growing in the preceding week that 
this was going to be a hurricane category 4 or a category 5. I 
was going to read this to Senator Stevens, but I didn't.
    There was a communication from William Lundy of FEMA to 
you, Mr. Carwile, and to Robert Fenton and others, e-mailed on 
Saturday, August 27, at 11:41 p.m.
    ``Recent recon flight reports category 4 now, maybe a weak 
category 5 by Monday morning. Landfall around noon. Storm is 
carrying a lot of moisture. Experts predict that the levees 
protecting New Orleans will be breached late Sunday night, 
thereby flooding the city to a depth of 6 to 12 feet. Storm 
surge 13 feet, with 20-foot waves on top of that.''
    Unfortunately, that e-mail was pretty much correct, except 
it estimated a little bit earlier than the levees actually 
broke. So here is my question. Again, hindsight clearer. And 
this is why some people say FEMA moved slowly. You have got 
this Red October, a fantastically equipped communications 
vehicle--why not move it into New Orleans in advance of 
landfall so you are there with a communications apparatus 
before, what was being talked about and predicted, the levees 
broke and the city was flooded?
    Yes, Mr. Parr?
    Mr. Parr. This was something that I discussed with the 
staffers that were down beforehand. One thing that you never 
want to do, especially when you are a response--we are not a 
rescue organization--but a response organization or an 
emergency organization, is put equipment or people into harm's 
way.
    If we had brought those vehicles into the Superdome, they 
would have been exposed. They probably, almost certainly with 
the high winds of a hurricane hitting, would have been damaged 
and rendered useless. There are other things that we could have 
done. And in hindsight, if we had been fully aware of the 
situation, we could have helicoptered communications suites in.
    Senator Lieberman. Beforehand, you mean?
    Mr. Parr. No. Afterwards.
    Senator Lieberman. Afterwards.
    Mr. Parr. But in my opinion, and there is no response 
organization that I am aware of that puts people or equipment 
in harm's way prior to landfall of a hurricane, unless it is a 
rated hurricane shelter beforehand, sir.
    Senator Lieberman. Yes, I have learned this as we have gone 
on, and I am not prepared to argue against it. But I am 
prepared, not now, to question it as we go along.
    Because, obviously, the people on the ground there, the 
local fire, police, emergency personnel are there. And if you 
see something this big coming, it is tough. I don't have an 
easy answer to this one. But it seems to me that there is an 
argument to be made that you would want to try to the best of 
your ability to get some people in, maybe equipment in there 
beforehand. But I want to come back to that.
    Mr. Parr, I do want to give you, while you are here, an 
opportunity to answer questions that were raised in Mr. 
Bahamonde's testimony and then in other testimony before the 
Committee about the fact that you and your teams left the 
Superdome on Thursday. You were there Tuesday, Wednesday, 
Thursday, and then left on Thursday, which left, obviously, the 
Superdome without any FEMA presence, including the medical team 
that you had.
    So, obviously, we ask why. And I want to give you the 
chance while you are here to answer that.
    Mr. Parr. Certainly. I could give you the long answer or 
the short answer. So I will try to give you something in the 
middle ground that would give you the situation.
    Senator Lieberman. OK. You have got two centrists up here. 
So---- [Laughter.]
    Chairman Collins. The middle position is always a good one.
    Mr. Parr. I think that we have described the situation in 
the city as a whole. The situation in the Superdome was always 
a powder keg. The Guard first made the suggestion, one of the 
generals of the Guard first made the suggestion that I consider 
leaving Tuesday night.
    Senator Lieberman. Do you remember which one that was?
    Mr. Parr. Yes, sir. It was General Veillon.
    Senator Lieberman. General Veillon.
    Mr. Parr. And that was when the city was filling, and they 
felt that once the lights went out that there would be 
pandemonium there.
    Senator Lieberman. So was he suggesting that your safety 
might be in danger?
    Mr. Parr. Well, I believe the school of thought was 
everyone, including the Guard--because, remember, not everyone 
in the Guard was armed. Most of the Guard was involved with 
getting food, commodities in, running and helping with medical 
missions. As I said before, they did a phenomenal job in search 
and rescue, in everything, and assisting the New Orleans PD as 
much as they possibly could. So I think it was everyone's 
safety.
    To skip many things, Thursday morning at first light, 
General Jones, who was the commanding general in place, said to 
me--I don't remember his exact words, but there are certain 
phrases that he said that stick out in my mind very clearly. 
``I don't believe I can protect you or your people any longer. 
We are going to be making our last stand,'' and he pointed to a 
portion of the parking lot over there. He says, ``Get behind 
us, and we will do what we can.''
    That is when we started making plans to leave. I spoke, 
since it was my responsibility to take care of the Federal 
forces on hand, I spoke to the NDMS teams, told them to 
continue to operate. I wanted to have helicopters standing by 
if the situation degenerated. We were unable to get helicopters 
in immediately.
    To make a long story short, I was informed by the DMAT 
team, the medical assistance team that was in the basketball 
stadium, that the Guard, in shortening their lines, had pulled 
all security from them. They told me that they did not feel 
safe and that they were evacuating. And they had high-water 
vehicles that they used to resupply and that they were pulling 
out in their vehicles.
    It was only at that time that I made the decision to leave 
since if conditions did degenerate, we would have no other way 
out.
    Senator Lieberman. I want you to know that some of the 
other folks who were there say that, in fact, there was not any 
behavior that would lead them to think that there was a riot or 
that there was a safety problem. I guess my final question to 
you is the following--to what extent did you see any behavior 
that would lead you to think that your personnel would be in 
danger, or was it derived from what the National Guard folks 
told you?
    Mr. Parr. There are many things that I left out in not 
giving the answer in total. The intelligence that we had all 
came from the Guard. That is the first thing.
    The second thing is is that--I just lost my train of 
thought. But one of the things to remember, when I did make the 
decision to leave, is not only did the Guard say that. You 
could see from some of the memos that the city asked for with 
400 rifles, etc., the Guard--and this was what I wanted to say. 
The Guard had intelligence that there would be riot. That 
people would move in force against the Guard at some point that 
late morning.
    Senator Lieberman. And they told you that?
    Mr. Parr. Yes, sir. And one of the things to remember is 
that I have worked in riot situations in my time as a 
firefighter and fire officer in New York City. I have worked in 
near-riot situations. The time for unarmed people, that is 
specifically a security and law enforcement issue, and the time 
for unarmed people to leave is before a situation starts, not 
after. And that is when I made the decision to leave when I 
did.
    Senator Lieberman. OK. I appreciate your answer.
    We are running out of time. I am going to mention something 
else. Maybe I will send a letter to each of you and ask for 
your response.
    This goes also to pre-storm, and the question is the 
following--in a circumstance like the one we saw coming here, a 
category 4 or 5 hurricane, with potential talked about widely 
that the levees were going to break. And what seemed to you, 
Mr. Wells, to be an inadequate evacuation plan in Louisiana as 
compared to what you saw in Texas, should we in the future have 
the Federal Government, perhaps through the military, be 
prepared to do pre-storm evacuation?
    Let me state it in a dramatic metaphor. If we had 
intelligence that led us to believe that a bomb was going to 
explode in one of our major cities within 3 days, and if we 
thought it was accurate intelligence, but we hadn't found a 
bomb, I presume we would use whatever Federal resources we had 
to get in and evacuate as many people as we could.
    And in some ways, though not quite the same, if you put all 
the facts together, we were in a somewhat similar situation 
with Katrina. And my question is should the Federal Government 
try to develop a kind of standby capacity, particularly using 
the military, and have the ability to assist in that kind of 
massive evacuation?
    Anybody really want to give a quick answer? Sorry.
    Mr. Wells. The answer is yes. And Katrina clearly showed 
that. But it needs to be expanded. I mean, the continuity of 
government. We need to have that capability. But this bottoms-
up approach only works to a certain point, and we need to have 
a Federal capability that once you get beyond that point that 
can make up the difference. And it may mean a totally different 
architecture.
    Senator Lieberman. Right.
    Mr. Wells. If that is the way it is, so be it. But this 
evacuation is a very important thing. And if we would have 
gotten those people out in time, we wouldn't have lost close to 
1,100 lives in Louisiana.
    Senator Lieberman. Absolutely right.
    Mr. Wells. So those are things that I think we need to look 
at to make it better next time so we don't have this happen 
again.
    Senator Lieberman. Mr. Carwile.
    Mr. Carwile. Senator Lieberman, if I might? I agree with my 
colleague, Mr. Wells, on this point in terms of capacity. I get 
in a little trouble, I think that the governors of the States 
have constitutional authorities that we can bring Federal 
capacity, whether it is military or other, to bear in support 
of them to whatever degree they are comfortable with. But I 
just throw that small caveat out.
    Senator Lieberman. Thank you. Mr. Parr, do you want to 
answer?
    Mr. Parr. Yes, sir. I also agree. I would defer a little 
bit. I think the military, the DOD is a support group in every 
emergency support function we have because they have so many 
talents and bring so many expertise to bear. In my opinion, I 
do not think they should be the lead in an evacuation, but 
certainly their assets could be used to help an evacuation.
    It might actually mean changes in statute. Until there is a 
disaster, the Federal Government has limited involvement, at 
least until there is some sort of declaration. I would like to 
see, personally, and I believe Mr. Wells in his writings has 
talked about expanding FEMA's role pre-disaster declaration. So 
that we can, even if it is just technical assistance, provide 
some assistance to States and locals from the Federal 
perspective in helping for evacuations.
    Senator Lieberman. Very helpful responses. Thank you. You 
have been very helpful witnesses overall in assisting the 
Committee in fulfilling its responsibility.
    Thanks, Madam Chairman.
    Chairman Collins. Thank you.
    I, too, want to thank each of you for appearing today, for 
your candid and insightful testimony. It has been very helpful 
for us to hear from those who were involved directly in the 
operations.
    We are going to be continuing our investigation and 
ultimately drafting some legislation for reforming the system, 
as well as recommending administrative reforms. And I would 
invite you to keep in touch with the Committee, and I hope you 
will be willing to react to proposals as we go along because 
you do have so much experience that I think is very helpful to 
this Committee as we attempt to determine what went wrong and 
what reforms are needed. So I thank you very much for your 
testimony and your cooperation.
    The hearing record will remain open for 15 days. We will 
include your complete written statements in the record, as well 
as any other materials that you wish to submit.
    This hearing is now adjourned. Thank you.
    [Whereupon, at 12:20 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6744.001

[GRAPHIC] [TIFF OMITTED] T6744.002

[GRAPHIC] [TIFF OMITTED] T6744.003

[GRAPHIC] [TIFF OMITTED] T6744.004

[GRAPHIC] [TIFF OMITTED] T6744.005

[GRAPHIC] [TIFF OMITTED] T6744.006

[GRAPHIC] [TIFF OMITTED] T6744.007

[GRAPHIC] [TIFF OMITTED] T6744.008

[GRAPHIC] [TIFF OMITTED] T6744.009

[GRAPHIC] [TIFF OMITTED] T6744.010

[GRAPHIC] [TIFF OMITTED] T6744.011

[GRAPHIC] [TIFF OMITTED] T6744.012

[GRAPHIC] [TIFF OMITTED] T6744.013

[GRAPHIC] [TIFF OMITTED] T6744.014

[GRAPHIC] [TIFF OMITTED] T6744.015

[GRAPHIC] [TIFF OMITTED] T6744.016

[GRAPHIC] [TIFF OMITTED] T6744.017

[GRAPHIC] [TIFF OMITTED] T6744.018

[GRAPHIC] [TIFF OMITTED] T6744.019

[GRAPHIC] [TIFF OMITTED] T6744.020

[GRAPHIC] [TIFF OMITTED] T6744.021

[GRAPHIC] [TIFF OMITTED] T6744.022

[GRAPHIC] [TIFF OMITTED] T6744.023

[GRAPHIC] [TIFF OMITTED] T6744.024

[GRAPHIC] [TIFF OMITTED] T6744.025

[GRAPHIC] [TIFF OMITTED] T6744.026

[GRAPHIC] [TIFF OMITTED] T6744.027

[GRAPHIC] [TIFF OMITTED] T6744.028

[GRAPHIC] [TIFF OMITTED] T6744.029

[GRAPHIC] [TIFF OMITTED] T6744.030

[GRAPHIC] [TIFF OMITTED] T6744.031

[GRAPHIC] [TIFF OMITTED] T6744.032

[GRAPHIC] [TIFF OMITTED] T6744.033

[GRAPHIC] [TIFF OMITTED] T6744.034

[GRAPHIC] [TIFF OMITTED] T6744.035

[GRAPHIC] [TIFF OMITTED] T6744.036

[GRAPHIC] [TIFF OMITTED] T6744.037

[GRAPHIC] [TIFF OMITTED] T6744.038

[GRAPHIC] [TIFF OMITTED] T6744.039

[GRAPHIC] [TIFF OMITTED] T6744.040

[GRAPHIC] [TIFF OMITTED] T6744.041

[GRAPHIC] [TIFF OMITTED] T6744.042

[GRAPHIC] [TIFF OMITTED] T6744.043

[GRAPHIC] [TIFF OMITTED] T6744.044

[GRAPHIC] [TIFF OMITTED] T6744.045

[GRAPHIC] [TIFF OMITTED] T6744.046

[GRAPHIC] [TIFF OMITTED] T6744.047

[GRAPHIC] [TIFF OMITTED] T6744.048

[GRAPHIC] [TIFF OMITTED] T6744.049

[GRAPHIC] [TIFF OMITTED] T6744.050

[GRAPHIC] [TIFF OMITTED] T6744.051

[GRAPHIC] [TIFF OMITTED] T6744.052

[GRAPHIC] [TIFF OMITTED] T6744.053

[GRAPHIC] [TIFF OMITTED] T6744.054

[GRAPHIC] [TIFF OMITTED] T6744.055

[GRAPHIC] [TIFF OMITTED] T6744.056

[GRAPHIC] [TIFF OMITTED] T6744.057

[GRAPHIC] [TIFF OMITTED] T6744.058

[GRAPHIC] [TIFF OMITTED] T6744.059

[GRAPHIC] [TIFF OMITTED] T6744.060

[GRAPHIC] [TIFF OMITTED] T6744.061

[GRAPHIC] [TIFF OMITTED] T6744.062

[GRAPHIC] [TIFF OMITTED] T6744.063

                                 <all>

</pre></body></html>
